<html>
<title> - HIGH-SPEED RAIL GRANTS AWARDED UNDER THE RECOVERY ACT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
         HIGH-SPEED RAIL GRANTS AWARDED UNDER THE RECOVERY ACT

=======================================================================


                               (111-103)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

             RAILROADS, PIPELINES, AND HAZARDOUS MATERIALS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                   April 20, 2010 (Chicago, Illinois)

                               __________




                       Printed for the use of the
             Committee on Transportation and Infrastructure




                  U.S. GOVERNMENT PRINTING OFFICE
56-158                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee               VACANCY
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
JOHN GARAMENDI, California
VACANCY

                                  (ii)



     SUBCOMMITTEE ON RAILROADS, PIPELINES, AND HAZARDOUS MATERIALS

                   CORRINE BROWN, Florida Chairwoman

DINA TITUS, Nevada                   BILL SHUSTER, Pennylvania
HARRY TEAGUE, New Mexico             THOMAS E. PETRI, Wisconsin
NICK J. RAHALL II, West Virginia     JERRY MORAN, Kansas
JERROLD NADLER, New York             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         HENRY E. BROWN, Jr., South 
GRACE F. NAPOLITANO, California      Carolina
JASON ALTMIRE, Pennsylvania          TIMOTHY V. JOHNSON, Illinois
TIMOTHY J. WALZ, Minnesota, Vice     SAM GRAVES, Missouri
Chair                                JIM GERLACH, Pennsylvania
MICHAEL A. ARCURI, New York          CHARLES W. DENT, Pennsylvania
CHRISTOPHER P. CARNEY, Pennsylvania  LYNN A. WESTMORELND, Georgia
ALBIO SIRES, New Jersey              JEAN SCHMIDT, Ohio
MARK H. SCHAUER, Michigan            CANDICE S. MILLER, Michigan
BETSY MARKEY, Colorado               VERN BUCHANAN, Florida
MICHAEL E. McMAHON, New York         BRETT GUTHRIE, Kentucky
THOMAS S. P. PERRIELLO, Virginia     AARON SCHOCK, Illinois
PETER A. DeFAZIO, Oregon             ANH ``JOSEPH'' CAO, Louisiana
JERRY F. COSTELLO, Illinois          PETE OLSON, Texas
BOB FILNER, California               VACANCY
EDDIE BERNICE JOHNSON, Texas
LEONARD L. BOSWELL, Iowa
RICK LARSEN, Washington
MICHAEL H. MICHAUD, Maine
DANIEL LIPINSKI, Illinois
STEVE COHEN, Tennessee
LAURA A. RICHARDSON, California
JAMES L. OBERSTAR, Minnesota
  (ex officio)

                                 (iii)

                                CONTENTS
                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Boston, Dennis, International Vice President, Brotherhood of 
  Railroad Signalmen.............................................    36
Doyle, Hon. Jim, Governor of Wisconsin...........................    13
Hamilton, John, President, Electro-Motive Diesel, Inc............    36
Hannig, Gary, Secretary, Illinois Department of Transportation...    13
Harnish, Rick, Executive Director, Midwest High Speed Rail 
  Association....................................................    36
Mchugh, Joseph, Vice President, Government Affairs and 
  Corporation Communications, National Railroad Passenger 
  Corporation (Amtrak)...........................................    36
Morris, Leigh, Deputy Commissioner, Indiana Department of 
  Transportation.................................................    13
Nikritz, Hon. Elaine, Representative, House of Representatives, 
  State of Illinois, and Chair, Midwest Interstate Passenger Rail 
  Commission.....................................................    36
Steudle, Kirk, Director, Michigan Department of Transportation...    13
Szabo, Hon. Joseph C., Administrator, Federal Railroad 
  Administration, U.S. Department of Transportation..............    13

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Boston, Dennis...................................................    50
Doyle, Hon. Jim..................................................    54
Hamilton, John...................................................    76
Hannig, Gary.....................................................    80
Harnish, Rick....................................................    89
Mchugh, Joseph...................................................    97
Morris, Leigh....................................................   106
Nikritz, Hon. Elaine.............................................   109
Steudle, Kirk....................................................   118
Szabo, Hon. Joseph C.............................................   129

                       SUBMISSIONS FOR THE RECORD

Doyle, Hon. Jim, Governor of Wisconsin:..........................
      Response to request for information from Hon. Brown, a 
        Representative in Congress from the State of Florida.....    59
      Response to request for information from Hon. Mica, a 
        Representative in Congress from the State of Florida.....    61
      Summary of WisDOT Rail Planning, Studies and Reports.......    64
Hannig, Gary, Secretary, Illinois Department of Transportation, 
  response to request for information from Hon. Brown, a 
  Representative in Congress from the State of Florida...........    86
Mchugh, Joseph, Vice President, Government Affairs and 
  Corporation Communications, National Railroad Passenger 
  Corporation (Amtrak), response to request for information from 
  Hon. Mica, a Representative in Congress from the State of 
  Florida........................................................   103
Mica, Hon. John, a Representative in Congress from the State of 
  Florida, chart entitiled, ``Midwest Intercity Rail Service-
  Planed Improvements Train Trip Times and Average Speed''.......     7
Nikritz, Hon. Elaine, Representative, House of Representatives, 
  State of Illinois, and Chair, Midwest Interstate Passenger Rail 
  Commission, response to request for information from Hon. 
  Brown, a Representative in Congress from the State of Florida..   115
Steudle, Kirk, Director, Michigan Department of Transportation:..
      Response to request for information from Hon. Brown, a 
        Representative in Congress from the State of Florida.....   124
      Response to request for information from Hon. Mica, a 
        Representative in Congress from the State of Florida.....   127
Szabo, Hon. Joseph C., Administrator, Federal Railroad 
  Administration, U.S. Department of Transportation:.............
      Response to request for information from Hon. Brown, a 
        Representative in Congress from the State of Florida.....   134
      Response to request for information from Hon. Mica, a 
        Representative in Congress from the State of Florida.....   139


[GRAPHIC] [TIFF OMITTED] 56158.001

[GRAPHIC] [TIFF OMITTED] 56158.002

[GRAPHIC] [TIFF OMITTED] 56158.003

[GRAPHIC] [TIFF OMITTED] 56158.004

[GRAPHIC] [TIFF OMITTED] 56158.005

[GRAPHIC] [TIFF OMITTED] 56158.006

[GRAPHIC] [TIFF OMITTED] 56158.007

[GRAPHIC] [TIFF OMITTED] 56158.008

[GRAPHIC] [TIFF OMITTED] 56158.009

[GRAPHIC] [TIFF OMITTED] 56158.010

[GRAPHIC] [TIFF OMITTED] 56158.011



 FIELD HEARING ON HIGH-SPEED RAIL GRANTS AWARDED UNDER THE RECOVERY ACT

                              ----------                              


                        Tuesday, April 20, 2010

                   House of Representatives
Subcommittee on Railroads, Pipelines, and Hazardous 
                                          Materials
             Committee on Transportation and Infrastructure
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 9:30 a.m., in 
Room 503 of the James R. Thompson Center, 100 West Randolph 
Street, Chicago, Illinois, Hon. Corrine Brown [Chairwoman of 
the Subcommittee] presiding.
    Ms. Brown. Good morning.
    Audience. Good morning.
    Ms. Brown. Welcome, Mr. Lipinski.
    Will the Subcommittee on Railroads, Pipelines and Hazardous 
Materials come to order?
    The Subcommittee is meeting today to hear testimony on high 
speed rail grants awarded under the Recovery Act.
    I started my trip to this hearing with a whistle stop tour 
of upstate New York. Members rode the train, got briefed by 
Amtrak officials and held listening sessions with local elected 
officials and transportation stakeholders.
    In Albany, we were joined by the Commissioner of New York's 
Department of Transportation. In Utica, we held an hour long 
question and answer session on high speed rail with local 
residents.
    All along the way we saw stimulus dollars at work improving 
the rail network and creating jobs for the local workforce, and 
it's right in the region of New York and here in Chicago where 
we can leverage the stimulus dollars and establish a domestic 
manufacturing base for high speed and intercity passenger rail 
and put some people back to work.
    Everywhere we went there was a strong support for both 
Amtrak services and high speed rail. The only complaints I 
heard were there was not enough money for passenger rail, and 
it wasn't coming fast enough. I can repeat that.
    [Laughter]
    Ms. Brown. It was not enough money and it was not coming 
fast enough.
    And I want to add we need a dedicated source of revenue. I 
assure everyone that the eight billion in the Recovery Act was 
just a down payment, and there is more planned in construction 
dollars that are coming.
    We need to get serious in the United States about funding 
high speed and intercity passenger rail. The one billion dollar 
budget for grants to states for fiscal 2011 is not enough when 
you consider the billions that other nations are investing.
    Over the past 50 years, the federal government has invested 
nearly 1.3 trillion dollars in our nation's highways and more 
than 484 billion dollars in aviation, and only since 1970 when 
Congress created Amtrak did we begin to invest in passenger 
rail. Since that time, we have invested just $67 billion in 
passenger rail.
    For passenger rail, that represents only two percent of the 
pie. In order to develop a good high speed and intercity 
passenger rail network, we need to invest and we need to show 
the states, the manufacturers and the U.S. work force that we 
are serious about that investment so that they can start 
getting serious about planning and developing for the future.
    We cannot do this without a steady stream of funding. I 
sent that message to the President last week. I spearheaded a 
letter with over 100 Members of Congress, including Chairman 
Oberstar to the President, urging him to call for a dedicated 
revenue source for high speed rail and for the administration 
to include that in its priorities for the next surface 
transportation authorization bill, and I am asking in that bill 
that we have a dedicated source of revenue for high speed rail.
    Just last June, the Committee proposed $50 billion for high 
speed rail over the next five years in a draft Surface 
Transportation Authorization Act. We want to find a way to fund 
what we are asking for and the administration's assistance is 
what we need.
    For now, we are making a great start with the award made 
under the Recovery Act, and I'm looking forward to working with 
our colleagues to provide additional funding for high speed and 
intercity passenger rail in the future.
    With that, I want to welcome today's panelists and thank 
them for joining us. We have some very distinguished guests 
with us today, and I am looking forward to hearing their 
testimony.
    Before I yield to Mr. Shuster, I ask the Members to be 
given 14 days to revise and extend their remarks and to permit 
the submission of additional statements and material for 
Members and witnesses.
    Without objection, so ordered.
    I yield to Mr. Shuster for his opening remarks.
    Mr. Shuster. I thank the Chairwoman for yielding to me, and 
thank you for holding the hearing today in Chicago.
    It is great to be back in Chicago. And I thank the city for 
hosting this hearing.
    I would ask the Chairwoman for unanimous consent so that I 
can put my entire statement into the record. I know we have a 
number of Members here and a number of witnesses. So I am going 
to abbreviate my statement. Maybe that is something most of you 
have not heard from a politician before.
    [Laughter]
    Mr. Shuster. But I'll try to keep it short.
    High speed rail is essential to our nation's transportation 
future, the best hope for diffusing congestion and the best way 
to move large numbers of people from center city to center 
city.
    It is an exciting time to be part of the Railroad 
Subcommittee, to be involved in what we are doing with high 
speed rail. It seems to be moving forward, advancing, with the 
$8 billion in grants already announced and 2.5 million to come 
later on this year.
    But we are falling behind the curve, behind our friends in 
Europe and Japan and what they have been doing for over two or 
three decades, as well as the Chinese now are moving forward on 
high speed rail, rolling their systems out.
    Again, I am glad to be here in Chicago again. I was here 
several weeks ago and had an extensive tour of all the 
transportation that was occurring here in Chicago, especially 
to create a program, a comprehensive plan that is put together 
by the region, committed to solving the railway loss that 
occurs, and I understand there were stories I told that 
gridlock has been moving freight across by rail across the city 
is so slow that they accumulating on one side of the city are 
the trucks, trucking on the other side to get through and 
that's a huge, huge problem.
    One of my concerns about the $8 billion that high speed 
rail grants that was awarded is that there's--some believe that 
it could actually increase the congestion here in Chicago and 
other parts of the nation; that it's not focusing on true high 
speed rail and ultra fast trains in various corridors in the 
bigger population centers of this country.
    The administration has ordered 76 to 78 grants for projects 
that will only go 110 miles an hour into smaller cities which 
will run over freight rail tracks. I am concerned that these 
high speed trains would interfere with freight operations, and 
it is something I think we really need to study closely and 
look at to make sure that we do not cause the situation in 
freight rail to become worse.
    Chicago alone is expected to double over the next 20 years 
its freight rail, and as the nation's freight demand will 
increase by 88 percent by 2035, which will require almost $150 
billion of investment to keep pace with this expanding rail, to 
expand the rail capacity in order for this nation to move the 
goods.
    So I believe the government should do all it can to assist 
and support the freight industry. Excuse the pun, but to get 
the government off the tracks and let the trains run.
    So, again, I'll submit my entire statement for the record, 
and thank you and the witnesses for being here today, and 
thanks to the City of Chicago, and I yield back.
    Ms. Brown. Thank you.
    And you almost used your entire five minutes.
    [Laughter]
    Ms. Brown. Mr. Oberstar.
    Mr. Oberstar. Well, thank you, Madam Chair and Mr. Shuster, 
for your cooperation to each other and in the purpose of high 
speed passenger rail. Both are very strong advocates for 
passenger rail, and Mr. Mica as well, our senior Republican on 
the Committee.
    It's hard to believe that three years ago Mr. Mica, Ms. 
Brown, Mr. Shuster and I worked together to reshape the future 
of Amtrak. We completely restructured the program. We moved a 
bill through Committee, through the House, and then a year 
later the Senate acted on that bill in October or September, 
rather, of 2008. In October the President signed the 
reauthorization of Amtrak, charted a new course, a new future 
of 11 corridors of interest to bring private sector competition 
into the future of passenger rail.
    And then came President Obama with his proposal for an $8 
billion, as Ms. Brown said, downpayment on the future of 
passenger rail. We are moving America in the right direction, 
and what more fitting place than Chicago to have a hearing of 
the rail hub of America. It is actually, like Ms. Brown said, 
Rail Week yesterday was in Kansas City, the second most 
important rail hub for freight rail, a city where they also 
want to bring back passenger rail, intercity passenger rail, 
transit to the center city.
    There is a rail and intercity rail and center city transit 
revival going on in America. It was not long ago, a lifetime 
maybe, 70 years ago, that spectators lined the tracks to watch 
the Chicago-Milwaukee-St. Paul Pacific Railroad, the Milwaukee 
Road. Streamlined trains roared through communities. It was 
very exciting.
    And in 1947, the first steam trains capable of 100 miles an 
hour, were running with the Milwaukee Road. The Milwaukee 400, 
400 miles from the Twin Cities to Chicago in 400 minutes; it 
was on the cover of Time Magazine, the fastest steam locomotive 
in the world, the fastest, to quote Time Magazine, the fastest 
train scheduled on the American continent, the fastest in all 
the world on a stretch for over 200 miles.
    Well, you could not drive 400 miles in 400 minutes in the 
'30s, the '40s, the '50s, the '60s, and you still can't. But we 
can get trains to do that.
    And I have a great deal of consternation about what the 
Chinese are doing, what India is doing, the European Community 
is doing with high speed passenger rail. Spain alone has 
committed $140 billion to 7,100 miles of high speed, 186 to 200 
mile an hour passenger rail. The French have high speed rail, 
Germany, Italy, and we are sort of bringing up the tail end.
    But we have made a start, and we are here to hear from you 
while looking at the start here in Chicago.
    Thank you.
    Ms. Brown. You know, when I said Mr. Oberstar, I did not 
mention and I need to because everybody in this room does not 
know that Mr. Oberstar is not just the Chair of the Committee. 
He is the transportation guru for the country.
    [Laughter]
    Ms. Brown. In every subject area, and we are very lucky to 
have him Chairing the Transportation Committee.
    And one of the things I like about this Committee is it is 
very bipartisan, and we work together, and Mr. Mica, who is the 
Ranking Member, we worked together on a lot of issues 
pertaining to Florida. So, Mr. Mica.
    Mr. Mica. Thank you, and thank you for calling this 
Subcommittee hearing in Chicago, Madam Chair.
    We are, indeed, bipartisan, but don't think we don't have 
our differences. I hope I am welcomed back to Chicago after I 
make my remarks this morning.
    I had a chance last night to come in on the Blue Line to 
see what the mass transit is here. I have taken the rail in 
from the airport, worked for years on the upgrade chairman of 
aviation during 9/11 of O'Hare, promoted the fast moving over 
conventional rail, a whole host of projects.
    And just walking around Chicago this morning, I am sorry 
Mayor Daley is not here, but they are doing a great job, even 
if Rahm Emanuel wants to run, I think----
    [Laughter]
    Mr. Mica. --Daley deserves credit. It is almost immaculate. 
You see that. If you fly over this place you see the majesty of 
this country and what people have done. It really is impressive 
within the infrastructure.
    Those are the nice comments. Now let me be pretty blunt. 
The title of this is High-Speed Rail Grants Awarded under the 
Recovery Act, and quite frankly, there are probably none and 
particularly not in the Midwest. I had the staff prepare a list 
of the projects. It is about 30 percent of the $8 billion comes 
to the Midwest, and I am the strongest advocate in the Congress 
at least on our side of the aisle, probably the other side 
pretty high in ranking in advocating rail and transit 
alternatives.
    But there are none of the projects that I see that even 
approach high speed. Probably the worst dog and the most money 
goes to Chicago-Milwaukee--no, wait. I take it back. That is 
not the big dog. The bad dog is the Chicago to St. Louis. It 
goes from 56 to 78 miles an hour, 78 miles an hour.
    On the New Jersey Turnpike the former Governor of New 
Jersey was clocked going faster than 78 miles an hour.
    [Laughter]
    Mr. Mica. But none of these projects achieve high speed 
rail. You can only put so much parsley around the turkey, and 
then you still have a turkey.
    You will hear people say, well, this is the step to get us 
there. I am telling you this is a step backward, and listen to 
not what I say but what others say. The Wall Street Journal op-
ed projected train speeds in the Chicago-St. Louis corridor 
will be much faster than the fastest trains in the 1930s were 
able to do. PBS says in the 1930s they reached 120 miles an 
hour. We will be getting the pre-World War II speeds resuming 
into the 1930s.
    And the thing is we are spending a huge amount of money and 
not getting the high speed that was promoted, one, by the 
President, who I strongly praise as he became a public advocate 
of high speed rail. We are actually doing damage because we are 
spending some of the money and sort of presenting a mirage of 
high speed rail, not that some of these projects will not make 
the trains go a little bit faster. My colleague said he was 
very delighted. Amtrak hijacked over 78 grants. Amtrak hijacked 
76 of the grants.
     Did he concede that one of the great dogs is the Ohio 
project. The chief had them check at 39 miles an hour. My God, 
you can practically bicycle faster than that.
    In fact, I checked. Greyhound, you can go from Cleveland to 
Cincinnati in five hours; Amtrak in 6.5 hours. Come on, folks. 
Let's get real. We need high speed rail in this country, and we 
need to invest in it, and we cannot when we are giving $8 
billion of taxpayers' money to put high speed rail in and we 
should be doing that.
    Now, you will hear from one Republican witness or the 
minority witness who will talk a little bit about a line that 
was left behind. It was sort of like, let's see, leave no high 
speed rail behind. Well, they left them all behind. He will 
talk about being left behind and the potential we missed in 
some of these corridors for true high speed rail.
    We might achieve 110 miles an hour or 100 miles an hour. 
Some of these are 87, 78, nothing over 87 in the list I am 
asking to put into the record. That is not high speed rail, and 
that is what we should be doing.
    I yield back the balance of my time and ask unanimous 
consent to submit this list of projects for the record.
    Ms. Brown. Thank you. These will be put in the record.
    Mr. Mica. Yes, but I ask unanimous consent.
    Ms. Brown. Oh, without objection.
    Mr. Mica. Thank you.
    Ms. Brown. Without objection.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 56158.012
    
    Ms. Brown. You see we are going to have a wonderful hearing 
today. I want to call on Mr. Walz.
    One of the things, if we could just kind of stick to the 
time because we have the witnesses, and of course, we have to 
get back to Washington because we have votes this afternoon.
    Mr. Walz. I thank the Chairwoman.
    Briefly, thanks to the City of Chicago and all of my 
colleagues here from Chicago. Thank you for inviting us to this 
great city and, again, thank you for being leaders as you 
always have been in the Midwest in taking us forward on this.
    I am very pleased to be here. I would like to thank all of 
the witnesses for taking the time. I think you heard from 
everyone here while there may be differences, this goal of 
creating a 21st Century transportation system, multi-modal, 
sustainable transportation, it is absolutely critical. It is 
critical for the livability of our communities. It is 
absolutely critical for our economic viability.
    And as a representative from southern Minnesota, this issue 
of rail and transportation is even more critical in our rural 
areas. In my district, we are one of the leading producers of 
agricultural products. We also have the Mayo Clinic. So Mr. 
Shuster's comments are appropriate in terms of being able to 
move both people and freight have to be combined together. And 
I think we can get that.
    I would like to give a special thank you to one of our 
witnesses, Governor Doyle, and it is not often you hear high 
praise from Minnesotans to Wisconsins.
    [Laughter]
    Mr. Walz. He reminded me of the last pass Brett Favre threw 
last year----
    [Laughter]
    Mr. Walz. --and rightfully so, but Governor Doyle's 
leadership on this, and I want to tie this together with 
President Obama and his vision, Chairman Oberstar and Mr. 
Mica's vision on high speed rail in this country, of trying to 
get it done. But Governor Doyle is one that actually made it 
happen.
    And what Wisconsin did and the catalyst for what this 
induces around the area is it is because of Wisconsin's 
commitment in moving forward that Minnesota was able to create 
a statewide rail plan, something that was sorely missing. How 
do we tie everything together? How do we tie our short lines 
together? How do we get this vision of where we are going to 
go?
    And because of the emphasis on building, because of the 
corridors that were focused and because of what Wisconsin did 
was Minnesota is coming on board, and when Wisconsin does well, 
Minnesota does well, and vice versa.
    So I want to thank you all for being here. I am really 
looking forward to your testimony to help us understand how we 
can achieve that vision that all of us agree on.
    I yield back.
    Ms. Brown. Thank you.
    I ask unanimous consent for Congressman Rush and 
Congresswoman Schakowsky be permitted to participate in today's 
hearing and sit and ask questions of the witnesses.
    Without objection, so ordered.
    Mr. Cao.
    Mr. Cao. Thank you very much, Madam Chair.
    All right. This is so high tech we do not even know how to 
use it.
    But I recently took a trip to Japan with Mike Honda, and 
when we were in Japan, we took a high speed rail trip from 
Tokyo down to Hiroshima, and I have to say that when I took 
that ride, I was so up on high speed rail. It was an incredible 
ride and something that I would really support that we try to 
build in the United States, and in this sense I do agree with 
Ranking Member Mica that if we are to build a high speed rail 
project, it must be high speed.
    And one of the rail projects that we are hoping to build is 
the Southern Corridor that stretches between Houston, New 
Orleans, and Atlanta, and during the application process last 
year, I was extremely disappointed that my governor failed to 
file an application to apply for this $300 million sector 
between Baton Rouge and New Orleans because of the shortfall in 
the state budget in the amount of $18 million.
    With that being said, I hope that the future of this 
country will move forward in implementing a truly high speed 
rail, and that one day the Southern Corridor will be a dream 
come true for me, and I hope that with the next application for 
the federal grants money, I hope that the State of Louisiana 
will work in conjunction with Mississippi, with Georgia, and 
with Texas to apply for the money and to build a truly high 
speed rail that will connect Houston, New Orleans, Atlanta, and 
provide a tremendous economic opportunity for the South.
    So with that, thank you very much for this hearing, and I 
yield back the balance of my time.
    Ms. Brown. Thank you.
    Mr. Lipinski from the Committee.
    Mr. Lipinski. As a Chicagoan and only Member of the 
Committee on Transportation and Infrastructure, I want to 
welcome all of my colleagues here to Chicago. thank you for 
coming for a hearing, and I welcome all of the witnesses. Thank 
you for your input here today.
    Chicago is the heart of American transportation network, 
and this is certainly true for rail. We have over 1,200 trains, 
over 37,500 rail cars passing through the city daily, making 
Chicago perhaps the most important freight rail hub in the 
world.
    We also have more than three million Amtrak passengers 
traveling through Chicago each year making it a key passenger 
rail hub.
    All of these trails travel on the same rail tracks. So the 
problem we have is unfortunately we are also a major rail choke 
point, not only for the region, but for the country. So what 
does all of this mean for high speed rail?
    Simply put, we cannot have high speed rail in Chicago and 
in the Midwest without the CREATE Rail Program, a comprehensive 
program encompassing 71 individual projects that will modernize 
the existing outdated infrastructure in Chicago land.
    High speed rail in Chicago will not only provide travelers 
with more options, create jobs quickly, and then take on 
development, but will also help unclog the existing Chicago 
freight rail bottleneck that hurts not only the region, but the 
country.
    We have made significant progress on this, starting in 2005 
with the Surface Transportation Reauthorization. I worked with 
Chairman Oberstar to allocate the initial $100 million for 
CREATE, which was matched by the freight railroads. In 2007, 
construction began on CREATE projects.
    Last summer the State of Illinois was very happy to have 
the Secretary of Transportation for Illinois, Gary Hannig, here 
today. The State of Illinois demonstrated its commitment to 
these two projects by committing $300 million in the state 
capital bill to create $400 million for high speed rail. And I 
thank Mr. Hannig and Governor Quinn for doing that.
    Tiger grants and Recovery Act, I led the delegation in 
supporting CREATE, which resulted in a $100 million grant and 
also worked with the delegation for high speed rail grants, 
which resulted in over $1 billion to high speed rail in 
Illinois. So we are making significant progress.
    One of the projects that Chairman Oberstar was out here 
last month as we announced that the construction will begin, 
one of the CREATE projects is the T1 project, also known as the 
Englewood Fly-over. This is $133 million which will come from 
the Recovery Act high speed rail funding, a perfect example of 
how you need to do CREATE in order to do high speed rail 
because this project will help facilitate high speed rail, will 
also help with commuter rail in the Chicago region, and is one 
of the key great clog points for the system.
    So it really shows and is a perfect example of how high 
speed rail creates passenger and freight rail go hand in hand 
especially in the Midwest bolstering our economy and helping 
produce more American jobs.
    For the move ahead, the next step as we move forward is the 
Surface Transportation Authorization Bill. I look forward to 
continuing to work with Chairman Oberstar, Ranking Member Mica, 
Chairwoman Brown, Ranking Member Shuster and other Members of 
the Committee to advance programs like CREATE and high speed 
rail that will help boost mobility in this country, lower 
emissions, improve freight efficiency, and really help to move 
our country forward economically.
    I am very happy to have the Committee here in Chicago today 
and look forward to hearing testimony.
    Thank you, and yield back.
    Ms. Brown. Thank you.
    Let me just say I was in Mr. Rush's district yesterday 
taking a look at a couple of the projects that you can't have 
high speed rail until you do some of the infrastructure things 
that you need to do as far as separating the passenger from the 
freight.
    You know, we started, I think, back in 1835 with rail in 
this country, and they used to use the caboose. We do not even 
use cabooses anymore. So this is an exciting time for us to be 
involved, but part of it is educating the community, educating 
the Members, educating the public and some of that was a 
dedicated source of revenue.
    The President has said that we don't have to be jealous of 
our competitors. We can get there, but it is step by step, and 
with that, Mr. Rush, welcome.
    Mr. Rush. Well, thank you, Madam Chairman.
    I am so glad. And I really thank you.
    [Laughter]
    Mr. Rush. It is so good to see you. You have always been a 
person who I have always welcomed.
    I have not seen, as far as I know, Madam Chairman, you have 
not been present since the glory days of the Bulls and you have 
a soft spot for the Magic, and I understand that. We're on our 
way back though.
    You and Chairman Oberstar and Ranking Member Mica and 
Ranking Member Shuster have captivated the attention not only 
of the Congress because you're here holding this hearing, a 
field hearing, to examine high speed rail. We are providing 
2009 Recovery Act, and I want to let all of you know that you 
are, indeed, of single importance to the rail transportation in 
America.
    We are so fortunate to have you here. We are so fortunate 
to have you in this great city. We're so fortunate to have the 
rail industries centralized in this city. It provides an 
opportunity for us not only to create a better common 
condition, but it really provides an opportunity for us to help 
disseminate money through the economy and thereby create 
meaningful jobs. A lot of this activities inspire the 
community, and this program and other programs can really help. 
And there's more of a need of this kind of economic 
development, economic opportunity, and economic stability.
    I see this as an opportunity to put Chicagoans back to 
work, and I look forward to seeing my constituents and other 
constituents throughout this city at work again.
    Madam Chairman, I do want to remind you that Chicago is the 
city that works because we have people who are willing to work 
and work to solve the problems not only on this end, but the 
problems of the nation.
    Madam Chairman, I am a supporter of the Improvement Act of 
2008 and the Passenger Rail Investment and Improvement Act of 
2008, coupled with President Obama's support for high speed 
rail will have us charting a course that will hold us in the 
development of world class 21st century network of high speed 
of freight and passenger rail corridors.
    This hearing today will focus on one of the nation's chief 
transportation regions, the Midwest, which will get $2.6 
million of the $8 billion awarded for high speed rail programs 
by the administration last January as authorized by Congress in 
ARRA. This award not only has economic impact here, but it will 
help further economic growth throughout the Midwest.
    The Midwest high speed rail corridor with Chicago as the 
hub was authorized just prior to my election to Congress in 
1992 and was the very first in the nation. This is significant 
and has included a erosion in ridership, revenue and air-rail 
market share of the Midwest Corridor to be one of the leading 
corridors in the U.S.
    But these efforts to reshape our rail transportation system 
will impose significant challenges in the decades and a 
relatively modest investment in passenger rail, we are full of 
expertise and they fail at a lack of manufacturing capacity.
    This is why I joined you, Madam Chairwoman, proudly joined 
you in writing to the President to seek a dedicated revenue 
source for planning the development of high speed rail. I hope 
the President and you are in agreement as we speak, and I hope 
he responds to us with a very vigorous yes that he will work to 
provide additional dollars for it.
    To overcome these challenges we must continue to develop 
strong partnerships among state and local governments, 
neighborhoods, and the railroad manufacturing and other key 
stakeholders that we now have before us.
    Madam Chair, I look forward to this hearing. I look forward 
to the distinguished panel of witnesses, and I look forward to 
being a part of this occasion and being here with you.
    I yield back the balance of my time.
    Ms. Schakowsky. --my remarks in the record, but I would be 
remiss if I didn't thank you for bringing this hearing to 
Chicago. You have been a heroic advocate to protect Amtrak and 
to expand rail transportation in the United States.
    We have a fabulous panel, including my former colleague, 
now Transportation Secretary Gary Hannig and friends all on 
this panel.
    I do just want to say one thing about jobs. This is not 
only about rail transportation, but it is about jobs, and the 
investment here in Illinois is projected just from Chicago to 
St. Louis to create another 6,000 jobs in our state, which is 
so greatly in need of that in addition to the incredible 
investment that will mean in our rail transportation.
    So we are all just so fortunate, too, to have the national 
guru of transportation, Jim Oberstar, here with us today, and 
let's get started.
    Thank you very much.
    Ms. Brown. Thank you.
    And let me just say that, as we get ready to hear from the 
witnesses, I wanted to take a moment to thank FRA because, you 
know, we can all have different opinions, but you know, facts 
are hard to get around, and we have authorized this program, 
and you all have implemented, and I want to thank you, and I 
know you're willing to discuss it.
    But in addition to that, you know, we have had a tough time 
for eight years when you had an administration that sent a 
budget over that zeroed out Amtrak, and so just to stay whole, 
I want to thank them for what they have done to just move 
forward and they are important partners as we move forward in 
high speed rail.
    We cannot do it in a vacuum. I mean, it has to be 
intermodal. It has to be the local working with the state and 
the federal government and private partners. So it is a 
partnership. I mean it is just like the southern states. We 
probably need a new player, Mr. Chairman, for the southern 
states because if the governors do not participate, they cannot 
be a partner in the process.
    It takes the state. It take the federal government. It 
takes local government, and it also takes the private 
investors. So as we move forward, I am excited about moving our 
country forward. Fifty years ago Eisenhower did the highway 
system. Now we are getting ready to do the high speed, but it 
is not just going to be high speed. It is going to be high 
speed. It is going to be more speed, but it is going to be 
reliable speed. It is going to be capacity. It is a whole lot 
of things that we are dealing with, and this is an exciting 
time to be a player at the table.
    And with that let me introduce our panel. Thank you so very 
much for coming. We are going to start with the Governor of 
Wisconsin that I have heard so many exciting, innovative things 
about what you are doing, Governor Doyle. I am just looking 
forward to hearing from you.
    Mr. Szabo, with the Federal Railroad Administration.
    Mr. Hannig who is the Secretary of the Illinois Department 
of Transportation, and Mr. Steudle, Director of the Michigan 
Department of Transportation, and lastly, Mr. Morris, Deputy 
Commissioner for Indiana Department of Transportation
    I want to remind you that you have five minutes, and we 
will have questions and answers, and then we will go on to the 
second panel. But we are going to start with the Governor, and 
welcome.

 TESTIMONY OF THE HONORABLE JIM DOYLE, GOVERNOR OF WISCONSIN; 
THE HONORABLE JOSEPH C. SZABO, ADMINISTRATOR, FEDERAL RAILROAD 
ADMINISTRATION, U.S. DEPARTMENT OF TRANSPORTATION; GARY HANNIG, 
SECRETARY, ILLINOIS DEPARTMENT OF TRANSPORTATION; KIRK STEUDLE, 
  DIRECTOR, MICHIGAN DEPARTMENT OF TRANSPORTATION; AND LEIGH 
      MORRIS, DEPUTY COMMISSIONER, INDIANA DEPARTMENT OF 
                         TRANSPORTATION

    Governor Doyle. Well, thank you, Madam Chairwoman and 
Ranking Member Shuster.
    And I really want to acknowledge and thank Chairman 
Oberstar and Ranking Member Mica.
    Let me just say this Committee has been enormously helpful, 
open, willing to discuss with Wisconsin and, I know, other 
states in the Midwest our plans, and we are very thankful for 
all that you have done so far, and we are thankful for the work 
that we are going to do together in the future.
    I also want to acknowledge and thank the Commissioners of 
the various Midwest states. The fact that we are where we are 
at in the Midwest is because states have been planning for this 
for well over a decade, and in Wisconsin, the reason we are 
able to move ahead so quickly is we have done the engineering 
work, the environmental work. We are ready to go, and with the 
help of the Recovery Act dollars, we are going to make a big 
difference.
    I really want to thank Mr. Szabo. FRA has been a tremendous 
partner with us, as has Amtrak, and of course, Secretary 
LaHood. I have said to the Secretary that as that train is 
rolling from Chicago to Milwaukee, we are going to have a 
statue of the Secretary sitting there at the state line, but we 
are very thankful for his recognition of what we have done and 
the decision to give Wisconsin a significant award of the 
Recovery Act dollars.
    We have been working in Wisconsin as a regional rail leader 
for many years, and our interest, of course, is very simple. We 
want to create jobs, and we want to connect our major 
commercial centers in Wisconsin, Milwaukee, Madison and other 
cities with Chicago, with the Twin Cities in Minneapolis, 
Minneapolis-St. Paul, and with the other Midwest cities. And 
that is what we now have before us.
    We have spent years working very closely with Amtrak, with 
the Federal Railway Administration, with other states to get to 
this point, and of course, we were thrilled when President 
Obama's decision with the Recovery Act, supported by the great 
Members of Congress who have supported this, to make the money 
available in the Recovery Act.
    Wisconsin was a significant--well, we got over ten percent 
of the money in the State of Wisconsin, and I think the reason 
we did is because we are ready to go. We are ready to build the 
trains. We are ready to put them on the tracks and to make this 
happen within the matter of the next couple of years.
    So we are thankful for everyone who has had this vision 
that will help people in our region move at a reasonable price, 
move quickly throughout our region, do it without long lines at 
airports, do it without the likelihood of big traffic delays, 
and be able to get from one place to another in a very safe, 
rapid and reliable manner.
    So with the Recovery Act, the President's and Congress' 
investment, we are very thankful to, as well as Congress' 
decision to appropriate the additional $2.5 billion. And we are 
going to work very closely with you to make sure that this has 
happened.
    We have had a proven record of success already in Wisconsin 
when it comes to passenger rail, and this is our opportunity to 
build on these efforts. Our current Hiawatha Service between 
Milwaukee and Chicago is the most heavily used Amtrak line 
outside of either coast of the United States, and its ridership 
is growing. Even in these difficult economic times, or maybe 
because of the difficult economic times, the ridership on that 
line continues to grow.
    Our Secretary of Transportation, Frank Busalacchi, who is 
with me today, rode down today from Milwaukee to Chicago, and 
it was standing room only on that train.
    Over the past decade, this line has consistently set 
ridership records. It has had one of the very best on-time 
performance records in the Amtrak system, and it is because 
people know when they're going to leave, and they know when 
they're going to arrive, and they can arrange their business 
around it.
    With the nearly $823 million grant that was awarded to 
Wisconsin through the Recovery Act, we will improve on these 
existing services. We will reduce travel time. We will build 
new lines with great demand, and we will create thousands of 
jobs. And the entire Midwest region will finally begin to 
realize the plans that were outlined in the Midwest Regional 
Rail Initiative.
    Wisconsin's award has included critical funding to study 
the best high speed rail route between Madison and the Twin 
Cities, a route that when finally completed will connect 
Minneapolis and St. Paul to Madison to Milwaukee, Chicago, and 
then hubbed out of Chicago to other cities throughout the 
Midwest.
    This grant will help us build on recent investments that we 
have made in the State of Wisconsin, and I think this is one. 
We have already taken steps before the Recovery Act came along 
and made significant state investments.
    We recently have replaced deteriorating stations between 
Milwaukee and Chicago. There are two stations now that are 
brand new, beautiful stations if you go from Chicago to 
Milwaukee. One of them is located in Mitchell International 
Airport in Milwaukee. Mitchell International is one of the few 
airports over the last year of the economic recession that we 
have been in that has seen significant increase in the 
passengers going out of that airport.
    One of the significant reasons is because of the really 
good rail service that we have that comes out of Chicago to 
Mitchell Airport, making that a convenient place for people to 
travel in and out of this part of the country.
    With the Recovery Act funds, new crossovers will be 
installed on our existing Milwaukee to Chicago line. This will 
improve our already high standard of safety. It will reduce 
travel time and very soon we will replace the current train 
cars with new state of the art train sets that will be complete 
with WI-FI bistro cars and all of the amenities that people can 
ask for.
    Let me also say that we are very proud to say that these 
train sets will be assembled in Wisconsin, creating even more 
jobs. Last year the State of Wisconsin, without Recovery Act, 
on its own purchased two train sets from Talgo, Spanish train 
manufacturer, and a few months ago Talgo announced their new 
assembly and maintenance facility will be located on the north 
side of Milwaukee.
    Let me just say the north side of Milwaukee has been an 
area that has been particularly hard hit by tough economic 
times. They are locating in an old automotive, industrial site 
that has been abandoned for years. We have been trying for 
years to figure out what we do with that site.
    That is the site that Talgo will be assembling railway cars 
and maintaining a maintenance facility in because of the 
commitments that the state has made and the Recovery Act has 
made.
    Other states have recognized this opportunity, and the 
State of Oregon has recently purchased two train sets that will 
also be assembled by Talgo in the new Wisconsin facilities. 
Their willingness to come along with us has provided 
significant savings to Oregon in the cost of those cars or 
those train sets as it has to Wisconsin.
    And the Recovery Act award will also now provide for us to 
fund the additional new train sets. So there are six train sets 
that are on their way to be built in the State of Wisconsin.
    In addition, we are about to put out bids for six to eight 
locomotives which will be built in the United States and will 
be creating jobs there.
    And in 2013 these trains will be running on a new line that 
we are constructing from Milwaukee to Madison on the way to 
Minneapolis. These speeds, the speeds on those trains as you 
move into less populated areas will be up to 110 miles an hour.
    We are working closely with the freight rail companies, and 
let me just say they have been very, very cooperative with us. 
I mean, I deal with the real world here, you know. I have got 
what we have in the United States, are freight lines and that 
is who has the lines. But they have been very helpful with us, 
very interested in making sure that we have very good, high 
quality passenger service.
    So in addition, the Recovery Act provides money for the 
continued study of what is the best route, and the lines that 
go will connect Madison to the Twin Cities, which will 
ultimately be the connection of Chicago to the Twin Cities.
     So we have been working very closely with the Federal 
Railroad Administration. We will continue with Amtrak and 
others. We will continue to work with our fellow Transportation 
Departments and governors in the Midwest. I think as a region 
we understand what the enormous value is to having people be 
able to move safely and securely.
    And I don't necessarily want to argue with Mr. Mica, but 
the former Governor of New Jersey wasn't driving very safely at 
those speeds.
    [Laughter]
    Governor Doyle. And on a train at those speeds I think he 
could be assured of a safe and on time arrival at his 
destination.
    So thank you very much for giving me this chance.
    Ms. Brown. Thank you.
    We let the Governor go over a little.
    Governor Doyle. Thank you.
    Ms. Brown. I am sure that he will do that and we will have 
you available for questioning.
    Thank you.
    Mr. Szabo. Thank you, Chairwoman Brown, Chairman Oberstar, 
and Ranking Member Mica, for inviting me today to testify on 
our high speed and intercity passenger rail program.
    You know, the last year has seen a dramatic change in our 
nation's view on the development of passenger rail systems in 
this country. Less than two years ago a federal partner didn't 
exist to help the states in the development of passenger rail, 
but Congress passed PRIIA, and the President advocated for $8 
billion in the Recovery Act, and it has made the single largest 
investment ever in the passenger rail.
    So I think it is just incredible how far we have come in 18 
months, and the fact that instead of talking about how we saved 
passenger rail, now we can debate about what is next, what is 
good enough. How do we get to the next level? So that is an 
incredible change.
    You know, there are some that believe that only investments 
yielding a 200 mile an hour service will yield benefits, but 
the facts simply show otherwise. It is about building a 
comprehensive passenger rail program.
    Ridership grows by meeting the needs of passengers in a 
given market, by developing competitive trip times that work 
for that market.
    You know, I just visited Maine a couple of weeks ago to 
look at the successful service from Boston to Portland, which 
operates at a top end speed of 79 miles an hour, and we have 
just funded an extension, expansion to Brunswick, which is a 
coastal town that's suffering from the loss of a military base. 
And what we saw was just amazing.
    The existing service has already demonstrated that 
reliable, on time service not only attracts passengers, but it 
attracts commercial development around the station. Up and down 
the line you saw the power, transit oriented development, and 
already in these two new communities that will be seeing 
stations in the next year or two under the expansion in the 
program, you're seeing transit oriented development already 
taking place where vacant buildings have been acquired. They 
have been bought. Things are already under construction, 
including new train stations, stores, restaurants, hotels, and 
condominiums, walking distance to that 79 mile an hour train.
    When we put out the applications, we expected this type of 
reaction, and that is why the vision that we released a year 
ago was for a comprehensive rail program with express high 
speed rail services that run 150 to 200 miles per hour, with 
regional high speed rail services of 125 to 150 miles an hour, 
emerging high speed rail services with speeds of 110 to 125 
miles an hour, and significant improvements to traditional 79 
mile an hour service.
    This allows the states or the regions the opportunity to 
cost effectively implement projects that meet their specific 
transportation needs. It is simply not a one size fits all 
endeavor. And this follows the comprehensive approach that, in 
fact, has been used so successfully in Europe and in Asia.
    And the support for the program was incredible. Two hundred 
and fifty-nine applications worth $57 billion came in to 
compete for the $8 billion that was available, and those 
applications varied tremendously in size and in scope.
    So at FRA we worked hard to review all of the proposals 
while insuring that we allocated funding to the projects that 
posed to deliver the most benefits relative to their investment 
cost. And, you know, it was amazing to me. The next day I 
happened to speak at a function in Gary, Indiana, and a good 
friend of mine was there who is testifying today, Rick Harnish 
with the Midwest High Speed Rail Association, strong advocate 
for 220 mile an hour service.
    And Rick stood up at that Gary function and said, ``FRA, 
you got it right. You have got the allocations right.``
    So less than a year since the President proposed the 
program, we have announced the grant recipients, including 
major investments in California and Florida, the only two 
states that applied for 150 to 200 mile an hour systems.
    In rough terms, 45 percent of our grants in the funding 
announced will go for that 150 mile to 200 mile per hour 
service. Another 40 percent goes for that emerging high speed 
area of 110 to 150 mile per hour service, and 15 percent goes 
to projects that benefit intercity passenger rail, which are 
projects that can be put to construction very, very quickly and 
develop those jobs.
    In the Midwest here, $1.1 billion will go towards 
improvements on the corridor between Chicago and St. Louis, 
which will allow passengers to enjoy services that operates at 
speeds up to 110 miles an hour. These higher top end speeds 
coupled with improvements resulting from increased on time 
performance will decrease travel times from Chicago-St. Louis 
by 30 percent. It will cut the travel time by one-third from 
existing service today, and it will make the service ten 
percent faster than driving.
    So again, what we have done here is achieved a trip time 
that is now competitive or, in fact, superior to the 
automobile. That's how you gain ridership.
    And at full build-out, the Midwest Regional Rail Initiative 
generates some 57,000 permanent jobs, 57,000 permanent jobs 
from the Midwest Regional Rail Initiative. It generates more 
than $23.1 billion in economic benefit for the region and has a 
positive cost benefit ratio of 1.8. For every dollar invested 
in this Midwest plan, this 110 mile an hour Midwest plan, every 
dollar put in generates $1.80 back.
    Job creation is a critical part of our program. Many 
companies headquartered in the U.S. and companies with 
headquarters elsewhere have expressed interest in participating 
and competing in our new program, and you will hear later today 
from EMD based here in LaGrange, Illinois, and I know they're 
very, very excited.
    To sustain momentum at FRA we have created a fast track 
program. We are coordinating with those states that have 
projects that are ready to go and moving them out the door 
quickly so that construction could start this year.
    You know, it is interesting. If you look back in history, 
it took the federal government more than three years to get the 
first dollars out the door for the start of the highway system. 
We've done it in three months. We have worked since day one to 
build stronger relationships with states and stakeholders; 
organized eight regional meetings with state DOTs and other 
partners that were attended by more than 1,200 stakeholders, 
and we have continued to meet with governors and legislators 
from across the country.
    We hold biweekly conference calls with the DOT secretaries 
and their rail program managers, and this unprecedented 
dialogue with the states was tremendously helpful as we worked 
to make this program a success.
    Long time DOT employees and state DOT employees have called 
this the most transparent and open program they have seen in 
their careers. In fact, the American Association of State and 
Highway Transportation Officials, or AASHTO, recently commended 
FRA for their outreach efforts and openness with the passage of 
a proclamation.
    In short, we're upbeat and confident about this program and 
the important contribution that it is going to make to the 
American landscape. We look forward to working with Congress to 
help make America's passenger rail system the best in the 
world.
    Thank you.
    Ms. Brown. Would you please turn off your phones or put 
them in the silent mode, please? I've learned how to do mine.
    Mr. Oberstar. That is a Committee rule, by the way.
    Ms. Brown. Yes, it is a Committee rule.
    Would the Secretary of the Illinois Department of 
Transportation begin? And we really need you to kind of stay 
within the five minutes so that we can get into the questions.
    Mr. Hannig. I certainly can, Madam Chairwoman and Mr. 
Chairman Oberstar and Ranking Member, Mr. Mica, and 
distinguished Members of the Committee.
    It is my pleasure to be here today to speak on behalf of 
high speed rail. Governor Quinn has other opportunities with 
the state legislature who are entering a pivotal part of their 
negotiations. So he asked me to speak today on his behalf.
    But clearly he is a very big supporter of high speed rail. 
Governor Quinn convened a group of Midwestern governors last 
July. We here in the Midwest, at the urging of Secretary 
LaHood, decided that we would take the advice from the 
Secretary and begin to speak with one voice here in the Midwest 
and to say that a victory for Wisconsin or a victory for 
Indiana or a victory for Illinois would be a victory for all of 
us in high speed rail applications.
    So we believe that we're going in the right direction, and 
we thank you for the support that you've given us for high 
speed rail and for stimulus money today.
    We believe that the national policy should support high 
speed rail to balance the transportation system. We know that 
in beautiful cities like Chicago with all of the greatness that 
it has, we also face problems like congestion, and we know that 
we cannot build our way out of the congestion problem by 
building more roads.
    We support roads at the Illinois Department of 
Transportation, and we're going to build more roads, but there 
is a limit to what we can do, and we know that in the 
metropolitan areas of our state that we need to have transit 
rail, and we need to have longer distance, high speed rail.
    We believe that the incremental development is the most 
efficient way of doing this. We already have tracks and right-
of-ways that are well established, and we have systems today 
that already work and that we believe that the best way to get 
high speed rail is to take our 79 mile an hour existing Amtrak 
service and upgrade it to 110 miles an hour.
    We've been working on this hear in Illinois since the 
1990s. We've made some progress, and we believe we're on the 
threshold. We also believe that with the money that President 
Obama has granted to our state and to the other Midwestern 
states that we're only a small jump away from getting to the 
110 mile an hour service.
    We found that since 2006 thereby having a reliable service 
with Amtrak, by having eight trains a day running north and 
south between Chicago and St. Louis, that ridership has 
increased; that there is a demand and there is a need for these 
services.
    We know that travelers focus mostly on how long it takes to 
get from destination to destination, counting all the time 
involved, and they look at the departure times, the arrival 
times, the arrival service, that is, on time service, and those 
are the important elements that we found that are part of what 
makes the high speed rail and the existing rail successful.
    Second, I think it is a little bit of a stretch to just 
assume that we could adopt a European model. I think it's 
important that we study what's been successful in Europe and in 
Asia, and if we look to try to take those things and bring them 
to America where they work, but we do agree that one size does 
not fit all, and that we are unique, and that we have to build 
our own system here in the United States that works for us and 
works for every region.
    So we believe that successful implementation of the 110 
mile an hour service in the Midwest will serve to build the 
ridership and the popular support that will justify either 
further and greater investments as we go forward.
    So federal funding through ARRA and the High Speed Rail 
Passenger Intercity Investment Act will serve well in moving 
this country forward to work with that goal, and adequate and 
well maintain rail transportation system is critical to the 
nation's economic prosperity and future growth.
    I still have 30 seconds left. So let me just again thank 
you for coming to Chicago and the Midwest, and we look forward 
to working with you to making this a reality and a success, and 
thank you.
    Ms. Brown. Thank you.
    Mr. Steudle, Director of the Michigan Department of 
Transportation.
    Mr. Steudle. Good morning, Chairwoman Brown, Chairman 
Oberstar and Ranking Member Mica. Thank you for allowing me the 
opportunity to testify for this morning on high speed rail 
grants announced under the Recovery Act.
    I bring you greetings from Governor Jennifer Granholm.
    My name is Kirk Steudle. I'm the Director of the Michigan 
Department of Transportation.
    These are existing times for intercity passenger rail 
development in our country, and this is largely attributable to 
the support of our policy makers at the federal level.
    So on behalf of intercity passenger rail riders in 
Michigan, thank you for that support.
    Amtrak initiated service in Michigan in May of 1971 as part 
of a nationwide system with service on the Detroit-to Chicago 
corridor. This corridor was one of the original federally 
designated high speed rail corridors and includes the only 
segment of track outside the northeast corridor that currently 
has the technical ability to travel at 110 miles an hour. It 
currently operates at 95 miles an hour.
    Service from Port Huron to Chicago was initiated in 
September of 1974 and service on our third route between Grand 
Rapids and Chicago began in August of 1984. There are 22 
stations in Michigan providing access to passenger train 
transportation along the three routes.
    Ridership on the three routes in Michigan has increased by 
37 percent in the last ten years, which is more than five times 
the growth of vehicle miles traveled in Michigan over the same 
period.
    Since 1996, Michigan has participated with eight other 
Midwest state DOTs and Amtrak as part of the Midwest Rail 
Initiative to develop and improve an expanded 3,000 mile 
passenger rail system in the Midwest. Over 80 percent of the 
region's 60 million population lives within a one hour drive of 
any Midwest regional rail system rail station. It has been 
estimated that the full build-out of the Midwest regional rail 
system will provide 6,700 new permanent jobs in Michigan and 
over $138 million of extra household income.
    This is very promising since the economic downturn has 
devastated Michigan's industry, business, and labor force.
    The Midwest was selected to receive $2.6 billion, and we 
are particularly excited by that $244 million that was invested 
in the Chicago-Detroit-Pontiac high speed rail corridor. This 
includes $40 million for three stations in Michigan, $71 
million for infrastructure, capacity improvements in Indiana, 
and $133 million for the new Englewood fly-over in Illinois. 
These are improvements that will continue to reduce travel time 
between Detroit and Chicago from five and a half hours to less 
than four hours when the full build-out is achieved.
    While we would have liked to have received a larger share 
of funding in Michigan, we support FRA's investments in Indiana 
and Illinois as necessary to reduce the congestion and improve 
service reliability for the entire Chicago-Detroit-Pontiac 
corridor. Michigan will request assistance from FRA to refine 
our applications and aggressively seek funding in the second 
round of high speed rail opportunities.
    MDOT has been encouraged with the collaborative effort that 
FRA has employed in rolling out this unprecedented program and 
for establishing and maintaining excellent lines of 
communications throughout the process.
    We are also encouraged by FRA and Amtrak's efforts 
regarding positive train control by investing in the 
incremental train control system in the Chicago-Detroit-Pontiac 
high speed rail corridor. This technology currently allows for 
intercity passenger rail service running up to 95 miles an hour 
between Kalamazoo and New Buffalo. Speeds in this segment, as I 
mentioned before, are expected to increase to 110 later this 
year.
    Amtrak was awarded recovery funding to expand the 
incremental train control system from New Buffalo to Porter, 
Indiana. When that is complete, it will have 100 miles of 
Amtrak ownership that has the ability to travel at that higher 
speed.
    Amtrak and Norfolk and Southern are currently working to 
complete an infrastructure study of IPC for coverage east of 
Kalamazoo to Dearborn, Michigan.
    When that study is complete and an incremental train system 
is in place, that will cover 235 miles of the 304 miles between 
Chicago-Detroit-Pontiac with the ability to run at 110 miles an 
hour.
    Intercity passenger rail ridership has increased far faster 
than vehicle miles traveled, despite the fact that travel times 
are somewhat slower. The recent funding commitments Congress 
has made to improving intercity passenger rail infrastructure 
will not only allow the system to be expanded, but will also 
have travel times and reliability that meet or exceed that of 
vehicle travel.
    The State of Michigan stands ready to work with all 
manufacturing companies, repair facilities, with economic 
development assistance to put forward our extensive 
manufacturing capacity.
    Thank you for the opportunity to testify this morning.
    Ms. Brown. Thank you.
    Mr. Morris.
    Mr. Morris. Madam Chairperson, Chairperson Oberstar, 
Ranking Member Mica, I appreciate very much the opportunity to 
be with you this morning to speak on behalf of Governor Mitch 
Daniels and the State of Indiana.
    Indiana has welcomed the opportunity to join with our 
southern neighboring states and the City of Chicago to explore 
the potential of high speed rail in the Midwest. We also 
recognize the complementary roles of the Midwest Interstate 
Passenger Rail Commission and the Midwest Regional Rail 
Initiative, as well as the tremendous work of Mr. Szabo and the 
FRA.
    In particular, and of great importance, we seek a better 
understanding of the role of high speed rail in the future 
economic development of the Midwest and Indiana. This question 
has yet to be fully answered, and yet it must be answered 
before decisions can be made to invest billions more in the 
effort.
    And that challenge underscores our collaboration with our 
Midwest neighbors. We will continue to support and work towards 
the development of that business case for high speed rail, 
including the proposed corridors that link Chicago with 
Detroit, Chicago with Cleveland, and Chicago with Cincinnati. 
Such a business case must thoroughly consider all relevant 
factors, including capital investment, ongoing operating cost, 
environmental effects, and the impact on the quality of life, 
to name but a few.
    And in this context, we believe it will be important to 
consider the role of private capital in the pursuit of high 
speed rail. A pragmatic assessment will offer a clearer 
understanding of the opportunity cost associated with high 
speed rail in relation to other modes of transportation, be it 
freight rail, highways or air transport, and a deeper 
understanding will foster our collective ability to set 
priorities and make choices.
    Indiana has been fortunate indeed, to weather the current 
recession without draconian cuts in service or increased taxes. 
Yet today our state has no ready source of matching funds to 
invest significantly in rail or multi-modal integration.
    Accordingly, Indiana is extremely grateful for the ARRA 
grant, for the Indiana Gateway Project that will cover the cost 
of design and construction of track and signal improvements on 
the Norfolk-Southern Line between the Illinois-Indiana state 
line and Porter, Indiana, arguably one of the most delay-prone 
and congested sections of rail outside of the major Chicago 
area.
    There are four objectives that we think are critical to the 
ongoing implementation of high speed rail. First, we must 
demonstrate and accurately forecast the cost of high speed rail 
to the federal, state and local governments.
    Second, we need to differentiate between the vision for 
high speed, high frequency passenger rail service connecting 
major regional urban centers from the traditional and often 
heavily subsidized rail passenger models of the past. This is a 
different kind of rail passenger service we're envisioning as 
we move toward high speed rail.
    Third, we must assure that investments in high speed rail 
are not made at the expense of the efficiency and reliability 
of our rail freight system.
    And finally, we must recognize that funding challenge, both 
capital and operating, which must be addressed in its totality 
in order to assure a strong business case is made for high 
speed rail.
    Thank you very much for the opportunity to speak today and 
to share our thinking on this very important issue. Thank you.
    Ms. Brown. Thank you, panel. I thank all of you for your 
testimony, and I am going to open with questions from our 
Chairman.
    Mr. Oberstar. Well, obviously the Thompson Building made 
the federal upgrades.
    [Laughter]
    Mr. Oberstar. Thompson himself would not be happy with 
this. He would say, ``What is this?`` We can send a signal to 
Mars and to the moon, communicate with astronauts. We can't 
communicate on Earth, and so we are seeing some of that.
    I just want to point out that in Title 49, U.S. Code, the 
High Speed Rail Corridor Development Bill that Mica and I and 
Shuster and Brown worked on was bipartisan. We are very proud 
of the legislation. It sets the stage for and we would not be 
at this stage without that bill, with the eight billion that 
President Obama put on the table, but high speed rail, the term 
``high speed rail'' defined in this act, means intercity 
passenger rail service reasonably expected to reach speeds of 
at least 110 miles an hour.
    The Recovery Act also provides for, in addition to very 
high speed rails, to graduated speeds, but also provided for 
what we would call computer rail. It provided funding to cover 
commuter rail projects as well, and those are not in the 
definition of 110 mile-an-hour high speed rail.
    In fact, I think the comments of our illustrative witness 
rightly pointing out that we have to respect the needs of the 
freight rail system is at the heart of the problem of 
developing high speed intercity passenger rail.
    The French didn't have to compromise with their Train 
Grande Vitesse. [Foreign language.] They simply built the rail 
system through France. They bought it, green fields. They 
didn't dig tunnels through mountains. They went over them, 
because with electric power you could do it.
    In Spain they are not compromising with freight rail 
because they practically have so little of it, they didn't have 
to. Nor in Germany or Italy. They just built it, green fields.
    We are building passenger rails on top of freight rails. 
Now, the railroads were given by the federal government between 
1850 and 1871 173 million acres of public lands for the public 
use, convenience and necessity of providing rail service. That 
was eight percent of the land surface of the United States. 
Eight percent of the total land surface of the country to own 
the timber rights above ground, the mineral rights below 
ground, and the right to sell, develop that property as they 
chose.
    It was important for the connecting of the east to the 
west, from the Atlantic to the Pacific, from Canada to Mexico. 
But now the freight rails owe a partnership with the federal 
government and with the people of the United States. That land 
was given from the public domain, and we should expect in 
return a ready, willing partnership with the freight rail.
    Amtrak in 2008 in the Chicago heartland encountered 3,400 
hours of delay, just in Chicago, just Amtrak. It takes as long 
for a container to move seven miles through Chicago as it does 
to go 1,800 miles from the Port of Long Beach, Los Angeles to 
Chicago. That is what CREATE is about. That is why we put $100 
million in the safety bill into CREATE.
    While the state has partnered with the federal government, 
unlocking that grid is critical. Here you have the confluence 
of four great rails, Amtrak, CPA, Metra, all in the heartland 
of Chicago, and two interstate highways on top of it. Unlocking 
the grid of CREATE is going to open the doors for high speed 
passenger rail, and rather than complicate freight and rail 
movement in Chicago, intercity high speed rail is going to 
unlock and speed that up and make all of this, with a 
combination of efforts, more effective.
    Thank you, Madam Chair.
    Ms. Brown. Mr. Mica.
    Mr. Mica. It seems everybody is happy here to have gotten 
some of this money that was intended to be distributed both for 
high speed rail, but also for some intercity passenger service. 
You're happy you got the money, right, Governor Doyle?
    Governor Doyle. Yes, I am.
    Mr. Mica. You are happy in Illinois and Michigan, Indiana. 
Everybody expressed that. Of course, everybody loves manna from 
Washington, but again, the hearing today that was high speed 
rail grants awarded under the Recovery Act.
    Now, everybody said, too, that they are hoping to get to 
110 miles an hour. I've got the speeds that will be achieved. 
This are part of what you submitted to FRA, correct? And your 
goal is to get to 110.
    One hundred and ten is not high speed rail, in my opinion, 
and as the rest of the world looks at these speeds as sort of a 
joke, quite frankly. We do have to learn from Europe.
    You are talking about manufacturing Talgo equipment that 
will run on those tracks, and you will achieve 87 miles per 
hour as opposed to 62, which is an increase like Mr. Szabo 
said. That is correct?
    Governor Doyle. I do not know about the exact miles per 
hour. That is generally----
    Mr. Mica. Well, I am just looking at your submission, all I 
have to go on.
    Governor Doyle. Well, I do not know what you are holding 
there. I do not want to be a lawyer, but that is generally 
correct.
    Mr. Mica. Well, he cited on a percentage basis, the 
increase, and I am going to get you that, but it still not 110, 
which is the definition Mr. Oberstar said we put in the bill, 
and 110, folks, was actually a watering down because high speed 
rail is not 110.
    And I would like to go to 220, which was cited as a 
illusionary goal.
    Do you all know who Daniel Burnham is?
    Ms. Brown. I do not know who he is.
    Mr. Mica. Do you know who Daniel Burnham is? The witnesses, 
the witnesses.
    Mr. Morris. Yes.
    Mr. Mica. You do. Do the others?
    Mr. Szabo. Absolutely.
    Mr. Mica. Okay. Behind us, the vision for this great city 
of Chicago was Daniel Burnham, one of the great planners. Here 
is a quote he said: ``Make no little plans, for they have no 
magic to stir men's blood.''
    I submit that what we have done is we have made little 
plans. Now, maybe we are stirring some folks with tantalizing 
them with there is going to be high speed rail, but my point is 
there is not.
    First of all, I have a little housekeeping chore. Mr. 
Szabo, I requested that DOT provide each rail project 
applications individual rating based on FRA's published 
criteria. I had requested that. This is what I got. I did not 
get what I asked for. This was provided to the Minority on 
Friday. I expect to get what I ask for, and I will move forward 
with a resolution of inquiry to make certain that we get that 
information because I want to see how these were issued, these 
grants.
    Eight billion dollars is not chump change. God forbid we 
should leverage it like the gentleman from Indiana might 
advocate, but my point is that that is that eight billion, and 
I can get over Amtrak hijacking 76 of the 78 projects. What I 
cannot get over is right now you have $2.5 billion in FY '10, 
right, Mr. Szabo, of federal money?
    Mr. Szabo. That is correct.
    Mr. Mica. Do you have that online, the information online 
that we requested that was going to be so transparent as to the 
requests that have come in and how you are going to get the 
money out?
    Mr. Szabo. I am not sure I follow your question, but again, 
as I said, this has been recognized as one of the most----
    Mr. Mica. No, you have testified that this is going to be a 
transparent process.
    Mr. Szabo. --transparent processes, and all of the 
stakeholders----
    Ms. Brown. Mr. Mica. Excuse me.
    Mr. Mica. Is the information----
    Ms. Brown. Excuse me, excuse me.
    Mr. Mica. I just want to know if----
    Ms. Brown. No, no. No, no. Timeout. Now what we want is we 
want to ask the questions, and we want to give him the 
opportunity to answer. So then ask your question, Mr. Mica.
    Mr. Mica. Okay.
    Ms. Brown. And then we are going to give the opportunity to 
answer.
    Mr. Mica. For the 2.5 billion, you know, I am requesting 
information on a billion, but this is money that Congress 
appropriated in the next dole of money that is to go out. It is 
supposed to be a transparent process.
    Is that information available now to the public or to the 
Committee? I know it is not to the Committee.
    Mr. Szabo. We have put out a notice of funds available. I 
believe it was----
    Mr. Mica. Have some funds----
    Mr. Szabo. --it was on March 31st regarding a portion of 
the 2.5 billion. That has been published in the Federal Record, 
will be coming back out by the end of this month with the 
notice of funds available for the remaining of the 2.5 billion. 
We are just now starting the process on that and our intent is 
to make sure all of that is gone through and awarded by the end 
of this fiscal year, September 30th.
    Mr. Mica. You are telling me about the process----
    Mr. Szabo. Again, let me state----
    Mr. Mica. I want to know about the request and----
    Mr. Szabo. And again--and again, we have resolutions passed 
by the State DOTs recognizing the fact that this has been the 
most open----
    Mr. Mica. But now--but----
    Mr. Szabo. Now, that's a fact. That's a fact. The most open 
and transparent project that they have seen----
    Mr. Mica. That is fine. That is fine. All I am asking you, 
are you going to put them online?
    Mr. Szabo. We're continuing to make information available. 
We have provided some information to you on Friday.
    Mr. Mica. We will request it and I will ask----
    Mr. Szabo. And we are continuing to make whatever 
appropriate information that should be released, we are making 
sure it is released. We will continue with----
    Mr. Mica. Let me finish my question. Thank you, Mr. Szabo. 
We will get that information one way or the other.
    Wisconsin now, you are getting--Ms. Brown, I rode the train 
for part of the way from Madrid to Barcelona, I believe it is. 
That Talgo equipment will go 145 miles per hour. So we are 
taking it to 87, which is the fact that that is where 1934 
reached 112 miles an hour, just for the historical record.
    Finally, Mr.--let's see. The gentleman from--Mr. Morris 
from Indiana.
    Mr. Morris. Yes, sir.
    Mr. Mica. It has been mentioned about learning from Europe, 
and I do not think we are learning from them.
    Ms. Brown. Mr. Mica, the way this works is that you ask the 
question and you give them an opportunity to answer.
    Mr. Mica. Well, I'm working on Morris now. I have been----
    [Laughter]
    Ms. Brown. No, no. We have not. You asked a very 
interesting question because you talked about the train and you 
talked to the governor. I want you to give the governor an 
opportunity to answer because one of the things is that you 
have the trains, but you have got to have the tracks.
    Mr. Mica. Yes.
    Ms. Brown. And that is a part of the process is to upgrade 
the tracks. Let's give the governor a chance to respond and 
then I will give you additional time to ask what you want.
    Mr. Mica. Well, he already told me he didn't know the----
    Ms. Brown. I want to hear what he has to say.
    Mr. Mica. He does not know the time the train runs so----
    Ms. Brown. No, no. I want to give him an opportunity. Let's 
be civil here.
    Mr. Mica. Okay. Do you want to respond?
    Governor Doyle. Well, sure. I mean to increase the speed 
from Milwaukee to Chicago from 68 to whatever your number was, 
to 86 is a very significant movement forward. Put aside the 
freight issue for a second. This is a highly populous area that 
you couldn't run a 200 mile an hour average speed from 
Milwaukee to Chicago. If we can increase speed from 60 by 20 
miles an hour, have a much more comfortable train that is Wi-
Fi, that is on time, we will dramatically increase ridership on 
that route, which is already very heavily used.
    So I don't know if you're suggesting that we should have a 
200 mile an hour train from Milwaukee to Chicago because that 
just would not----
    Mr. Mica. Mr. Szabo is the one that has mentioned 220. I am 
trying to get this to 110 or 150.
    Thank you.
    Well, in any event, I have no problem. I understand what 
you are doing and you are trying to improve the existing 
service. The final thing is learning from Europe which was 
mentioned here, and I do not want to mirror Europe. They have 
made mistakes, but privatization or regionalization is one of 
the things that has been done, and they have leveraged their 
money. They can take the eight billion and leverage it four or 
five times.
    Deutsche Bahn in '96 regionalized and opened a private 
competition. Dallas gained three and four times, five times the 
ridership, and they brought private investment. In England, 
with just one company, Virgin Rail, they got the north-south 
line, invested billions of private sector dollars; the past 
five years has paid a dividend.
    There is a great model in Indiana for using private sector 
initiatives for maximizing some of the returns. Mr. Morris, do 
you think we should look at some of those positive things, 
examples from Europe that we could model?
    Mr. Morris. Absolutely. That is one of the reasons we 
mentioned how important it is for us to assure that the role of 
private capital is integrated into our business planning for 
high speed rail in this country.
    Ms. Brown. Thank you. Thank you.
    Mr. Mica. I yield back.
    Mr. Oberstar. Madam Chair.
    Ms. Brown. Yes, sir.
    Mr. Oberstar. If the gentleman would yield, if he would 
give me time.
    Mr. Mica. I will yield.
    Mr. Oberstar. We have received, not ``we,'' but the FRA, 
DOT, four private sector bids, one for California, and one, the 
SNCF for the Midwest Rail Initiative and two others. In none of 
those cases did the private sector propose to put up any risk 
funds, nor have they discussed any leveraging.
    The opportunity is there. The Secretary of Transportation 
will work with the private sector bids, but there is obviously 
difficulty in leveraging funds as we had hoped would result 
from the Amtrak bill. The mood in which we opened the door for 
private sector investments, the first four proposals under that 
initiative have been received. They are vetted, being 
evaluated, but they have not come forward with any private 
sector funds.
    Mr. Mica. I just want to say we are making progress. I 
thank the Chairman. I also thank the Chairlady of the 
Subcommittee for their continued diligence and persistence to 
try to make that issue reality that we came up with, but I will 
still hammer away.
    Ms. Brown. Thank you.
    And let me just say----
    Mr. Oberstar. Hammer away, but, Mr. Mica, you have to 
respect the problem.
    Thank you.
    Ms. Brown. Let me just say that I want to thank you all 
again, but let me just add one other thing. I have been around 
the world and looked at the different systems. I have had them 
come in, different companies, and I am still talking with them, 
and one of the important points is, yes, we want to learn from 
them, but we also want to learn from their mistakes.
    Now, the communications, including the English, the 
government had to go in and bail them out. That is the last 
thing we want. So as we develop a model, let's develop an 
American model.
    Now, let me ask a question from the Governor of Wisconsin. 
I was in a hearing, I guess, a workshop, and they talked about 
the program that you had and the great minority participation 
and small business participation. Can you expound on that a 
little bit? Because Mr. Rush and I have been interested in 
making sure that everybody gets a slice of what I call my 
grandmama's sweet potato pie.
    [Laughter]
    Governor Doyle. We, with our Department of Transportation, 
when we rebuilt the Marquette Interchange, which is the largest 
interchange in the State of Wisconsin, right in downtown 
Milwaukee, went through a different bidding process, and we 
divided bids up, but we also had a significant outreach into 
the minority community, which is right where the road was, to 
make sure the people who have small businesses knew how to make 
the bid.
    So instead of giving out one big bid, somebody could bid on 
the paving work that had to be done on a certain stretch or 
they could bid on landscaping and other kinds of things. It was 
enormously successful. On that project, which was about a $900 
million project, I believe 23 percent of the contracts went to 
minority bidders.
    And I am also very pleased to say that I have forgotten the 
exact number, but 30 to 40 percent of the people who worked on 
that, the overall project, were people of minority background.
    Certainly we have learned a lesson, and as we are now doing 
another major stretch of highway to Milwaukee, from Milwaukee 
to the Illinois border, we are following that process, and as 
we build out this rail system, which will involve thousands of 
jobs in the coming years as we build the rail out from 
Milwaukee to Madison and ultimately to the Twin Cities, we will 
work to do it in the same way to make sure that those 
opportunities are there for people.
    Ms. Brown. Mr. Rush, do you want to follow up with that?
    Mr. Rush. Yes, Madam Chair. Thank you so much.
    You have a couple of--in follow-up to the question that the 
Chairperson asked. How do you compare the minority bidding? Was 
there a separation page that you prepared in terms of outlining 
and making people familiar with the process of applying and 
bidding for these different contracts?
    And would you also after you answer that question, would 
you just issue a bonding also, a bonding?
    Governor Doyle. A bonding in general?
    Mr. Rush. In general.
    Governor Doyle. Well, on the first aspect, we had a very 
well thought out outreach strategy. We had people trained and 
knew the contracting process that held workshops for several 
months before the bids went out in communities across the 
state, not only minority but others as well.
    We also enlisted a number of business people who were in 
the construction trades, particularly in the minority 
community. We enlisted them to help us reach out to other 
businesses.
    We worked with the local trades and developed a very 
effective apprenticeship program that allows people to move 
through the apprenticeships and into the trades. So that was 
all very effective, and so I think we have a very good model 
and we know how to do it. We are going to just roll it out 
every single time we have these opportunities.
    On the bonding issue, I mean in general a bonding for 
transportation, you know, my view of this has been that this is 
all a balance. You do not want to over bond and yet you have to 
understand these are big capital projects that you do not walk 
in and pay for cash. And I think it is reasonable that people 
that will be using the transportation facilities over the next 
25, 30, 35 years pay for those, in a way.
    So it is not just for the current generation to pay in cash 
for all the people that will use that in the coming years, and 
so the result of bonding is obviously you can build bigger 
projects. There is a cost to the states, and you have to really 
make sure you keep that in line, and so we have geared a basic 
accounting on what percentage of our overall state budget 
should be bonded.
    But I have not been afraid when there is a major capital 
project to do it through bonding. These are big capital 
projects, and they are naturally paid for over a long period of 
time.
    Ms. Brown. I think with the minority or the small business 
contracts, how did you handle that portion of it? Does the 
state have a bonding program?
    Governor Doyle. Oh, on bonding, I am sorry. I am sorry. I 
got off on city finance.
    [Laughter]
    Governor Doyle. I just do not know the answer. I can get 
that for you.
    Mr. Oberstar. Governor, in the stimulus program we include 
for the first time federal funding, $20 million, to be 
allocated to minority enterprises that would not otherwise be 
able to acquire the bonding they needed to compete on 
transportation projects, the first time that such an initiative 
was provided in federal law. It was patterned after a program 
issued in the State of Maryland several years ago and our 
colleague from Maryland, Ms. Cummings, a Member of the 
Committee, Chair of the Coast Guard Subcommittee, suggested 
that we include this authority in the stimulus bill, which we 
have done.
    Unfortunately, the U.S. DOT, Federal Highway Administration 
did not notify State DOT. They, in turn, did not have that 
information at their fingertips to notify minority contractors, 
and just a little over 100,000 of that 20 million has actually 
been allocated to firms.
    U.S. DOT, Federal Highway through Asheville is correcting 
that shortcoming and states are being given direction to notify 
contractors. I think the issue is whether there will be such 
bonding authority available for minority contractors who would 
like to bid on the high speed rail segments.
    We didn't encounter any such problems with----
    Governor Doyle. Well, we have not, and we do not have state 
bonding, but let me say we will certainly, Mr. Rush, look into 
this and use it to the full extent we can. I mean, I am very 
appreciative of knowing about it, and we will use it. This is a 
very important goal for us and one that we have been pretty 
effective in, and the bonding authority will help us do that 
even more.
    So thank you.
    Mr. Rush. Madam Chair, I just want to respond to my friend, 
Mr. Mica.
    Ms. Brown. He is not here right now. So we will wait until 
he comes back.
    Mr. Szabo, I want to give you an opportunity to further 
expound on the process since it has been questioned about the 
process. I personally took the time to read the information. I 
mean, they say when all else fails, read the bill. So I have 
done that, and it looks like you all followed the process that 
we laid out and you did not develop moves that were contrary to 
what we laid out.
    So can you expound on the process?
    And while you are getting the mic, let me just positively 
say that the Chairman or the Secretary of Transportation has 
done a yeoman's job, Mr. Ray LaHood, and I want you to note 
that he is a Republican and I am a Democrat, and I think he is 
one of the best Secretaries that we have had since I have been 
in Congress, and I have been here for 20 years now.
    So I just want to say publicly that I support this 
Republican.
    [Laughter]
    Ms. Brown. He has done an excellent job.
    Mr. Oberstar. Amen.
    Mr. Szabo. Madam Chair, let me say this. It truly is a 
pleasure to work for the Secretary, and he has a very bold 
vision for what he wants to do to give the public new 
transportation options and trying to rebalance our 
transportation network, including the value of freight rail as 
well as passenger rail in that equation.
    Back to the process, I mean, again, this goes back to the 
passage of PRIIA, which, you know, this Committee and Congress 
passed about 18 months ago, and then the Recovery Act about a 
year ago that was passed. From that point, the first thing we 
did was sit down and put together a vision document, which was 
published and distributed to all the stakeholders, and again, 
that kind of laid out those four categories of what we felt 
made part of a----
    Ms. Brown. Excuse me. Was this all on the website?
    Mr. Szabo. Absolutely.
    Ms. Brown. Because it has been on the Website from the very 
beginning.
    Mr. Szabo. Yes, absolutely, from day one. After the 
document was released by the President, just slightly before I 
came on.
    Ms. Brown. So you have complied.
    Mr. Szabo. That would be the next document. After the 
vision document where we set out, again, that we were looking 
to achieve a very comprehensive passenger rail program, you 
know, that, again, allowed the states and allows the regions to 
tailormake their plans in accordance to what their 
transportation needs were.
    Once that document was published, we then began the process 
of putting together the grant guidance, and that was, you know, 
kind of where the rubber meets the road or in this case maybe 
where the steel wheel meets the track of, you know, how to 
apply and the different technical aspects.
    And as we were putting that document together, that's where 
we really, really started the extensive outreach, where we did 
the eight public outreach sessions across the country in the 
different regions. More than 1,200 transportation professionals 
and advocates and State DOT people attended that and 
articulated their vision for passenger rail and what they felt, 
what the states felt would be necessary to insure a successful 
program.
    You know, it is real important to point out that this 
program is a state driven program. It is not a federally driven 
program. You know, Congress and this Committee in the passage 
of PRIIA and the Recovery Act made it state driven, and so it 
is incumbent upon the states to develop the vision that they 
want for passenger rail in their states or in their region and 
put it all together and then to make the application for 
funding to the Federal Railroad Administration.
    And so after several months of outreach, again, some 1,200, 
1,300 people participating, we actually published the grant 
guidance, and again, that was all posted on the Internet.
    The next thing we did, since this was brand new, a brand 
new program, really in its infancy, starting from scratch, and 
since the State DOTs to a great extent lacked the expertise 
because, again, two years ago we were talking about shutting 
down passenger rail and now suddenly we have a brand new 
program. So while these DOTs are all very strong and very 
competent in executing highway programs and in many cases 
transit programs, the level of expertise in passenger rail 
varied greatly.
    You could look at North Carolina, which has 60 people in 
their passenger rail DOT, compared to South Carolina which has 
half a person, and that kind of shows the gamut that the State 
DOTs run.
    And so what we suggested to the states, we provided an 
opportunity for them to submit pre-applications, and we 
strongly urged that and said that before you make the real 
application, submit a pre-application, and so we set a deadline 
for that. And again, all of this posted on the Internet, as 
well as communicated in the regular conference calls that we 
conducted with the State DOTs and meetings with AASHTO and AFTA 
and other stakeholder groups.
    And so the states did, in fact, submit those pre-
applications, and then what we did, we sent teams out to the 
field to meet with the State DOTs to go through their pre-
applications, and again, we could not tell them what to do. We 
are not going to tell them what is right for their state or for 
their region, but more through a series of questions the staff 
would ask the DOTs. We allowed them to somewhat critique their 
own pre-application.
    And then came the deadline to where the DOTs had to then 
submit their final applications, and again, all of this posted 
on the Internet and those final applications came in, and this 
is where the staff sat down and we brought in experts, 
transportation experts, from the Volpe Center and borrowed 
personnel from the Federal Transit Administration that has been 
doing programs of this nature for decades, and we started the 
merit review on all of them, taking a look at what are the 
transportation benefits that they would provide.
    You know, what are the other public benefits that they 
would provide? What is the connectivity to transit and to 
airports? How multi-modal is the vision? How much gasoline may 
it save? How much might it make on air quality? What is the 
strength of the management plan of the state? What is their 
history in executing a passenger rail program?
    So, again, we started taking a look at all that criteria to 
determine will this be a successful application. Does it have a 
good chance for success?
    Now, on the flip side we had to balance all of that with 
how quick might it create jobs because, if you recall, it is a 
Recovery and Reinvestment Act. So we have two goals that we 
have to achieve, and sometimes it is an interesting line that 
you have to balance.
    And so clearly, the super high speed rail has the most 
reinvestment power. It has transformative transportation 
benefits, and that is why we were thrilled that we had two 
strong applications in that area, California and Florida.
    You know, on the flip side, when it comes to job 
development, these smaller projects, you know, small, discrete 
projects perhaps for 79 mile an hour service creates immediate 
jobs to put people back to work.
    Ms. Brown. Let me just say one thing on the record. I can 
truly state that if the Secretary had not worked due diligence 
with Florida and with my staff and Mr. Mica and the 
legislature, we would not be where we are today and receive 
that grant. The Secretary himself came to Florida where we had 
hearings and testimony and discussions.
    So regardless of what anyone says, the department worked 
diligently with the areas, and I am so happy that Florida was 
able to participate, but would not have been able to 
participate if we had not had the due diligence working with 
our State Department of Transportation and working with our 
congressional delegation.
    And would you agree to that, Mr. Mica?
    Mr. Mica. Well----
    Ms. Brown. That is a yes or no question.
    Mr. Mica. --when we do the hearings----
    [Laughter]
    Mr. Mica. --and I am going to say the same thing--the 
Florida project is not a high speed rail project.
    Ms. Brown. Okay. Would you agree that we would not be where 
we are today if the department had not worked with us? That is 
a yes or no question.
    [Laughter]
    Mr. Mica. Yes, we are here today because we are here today.
    Ms. Brown. All right, then. We will move on.
    Mr. Shuster. I do not need a microphone.
    I am going to say that I think that everyone shares the 
vision for intercity rail across the country such as the major 
corridors. I think the problem is, and it has been this way for 
40 years since creating Amtrak, is that it lacks focus.
    And, Mr. Szabo, you talk about a comprehensive plan. I 
think it lacks focus. The money was not focused on areas where 
we can truly get what Mr. Mica has been talking about, truly 
high speed systems. We have spread the money out across the 
country. It is going to help in some places with incremental 
increases, but I really believe we could stay focused on 
getting a couple of high speed corridors up and running so that 
then we can sell that to the American people, to the Congress.
    We had this debate raging for 40 years. My colleagues on 
the other side of the aisle say that you cannot have a 
passenger system without the government subsidizing it. My 
Republican colleagues, on the other hand, say Amtrak is a 
failure. Sell it off. It is not going to work.
    I believe it is somewhere in the middle. I believe that we 
can have a passenger rail system that if it may not be able to 
be profitable, but at least gets to zero as being taxed and 
it's not subsidized year in and year out.
    And the only way to do that, I believe, is to find the 
corridor, make the investments, and do the business analysis. 
Mr. Morris, you had asked some tough questions about that, and 
what kind of data and assessments do we need to make, and you 
believe--I know the Governor of Indiana is taking a tough stand 
on some of these things. I wonder if you might expand on that a 
little bit.
    Mr. Morris. Well, I think the development of a business 
plan for high speed rail that deals with these issues, we do 
not have solid enough information to really make long-term, 
billion dollar decisions about high speed rail at this point. 
We have elements of it, but it needs to be put together in a 
comprehensive way. We need to have stronger economic benefit 
analysis information that demonstrates clearly the economic 
impact of high speed rail development and related transit 
oriented development. That is not there at this time.
    And by the same token, we believe the capital investment is 
very important, but we have to look more seriously at what it 
is going to take in terms of operating support as a part of 
this business plan, and we agree with your objective that we 
ought to be able to work toward getting to zero in terms of 
ongoing operating subsidy.
    If we had planned these corridors correctly, if we have the 
frequency and the speeds that make it competitive with other 
modes of transportation, that should be one of our key 
objectives, and the plans should show how we can get to that 
point.
    Mr. Shuster. --we had in our bill. The northeast corridor--
get it out to the public and have them see that private capital 
will come, and I believe you will see private capital want to 
come in through the northeast corridor because it is the only 
tracking that is owned by Amtrak. Everything else, of course--
and I have got to believe that, in talking to other folks, that 
is a problem that they know they are going to get into. You 
know, the UP owns the track. Amtrak does not. There is going to 
be trouble and debate there.
    Mr. Szabo. Congressman, if I can make one comment.
    Mr. Shuster. My time. I will ask the questions, you can 
answer, you're going to have to stand up then you can answer.
    Mr. Szabo. I could and I can answer the question.
    Mr. Shuster. And I will let you answer it, but I want the 
question answered. I do not want to be led astray.
    The information that we have received, we do not have the 
ratings. We have a lot of information, but we do not know how 
it matches up to the criteria, and that is what we are looking 
for. So we are concerned how does that go about.
    You said here that that is going to be forthcoming. We want 
to see that information to see just exactly how the money 
flowed out. So can you answer that? When are we going to see 
that information?
    Mr. Szabo. First, let me say to Mr. Morris that all of that 
data already exists on the Midwest Regional Rail Initiative.
    Mr. Shuster. So Mr. Morris has asked the question.
    Mr. Szabo. I know, but----
    Mr. Shuster. Specifically when----
    Mr. Szabo. He was absolutely right as far as----
    Mr. Shuster. I am asking the question.
    Mr. Szabo. I will answer your question.
    Mr. Shuster. Okay.
    Mr. Szabo. I will answer your question, but I just want to 
state for the record that that analysis has, in fact, been done 
by the state DOTs but it is incumbent on them to do that level 
of analysis to help determine what their vision is for 
passenger rail.
    And the Midwest Regional Rail Initiative, frankly, is one 
of the most complete in that regard in identifying those 
things.
    Mr. Shuster. But if it is spending federal taxpayer 
dollars, it is incumbent upon the FRA to also do this type of 
analysis to decide where the money is going to go, if it is 
going to go the Northeast Corridor, if it is going to go to 
California. That is what we need.
    Mr. Szabo. Exactly, exactly, and so that is----
    Mr. Shuster. That is my question. Back to my question. When 
will we get the information on the ratings, how they line up, 
criteria versus where the money went? How does this come 
together?
    Will we have that in the next five days, seven days?
    Mr. Szabo. That is precisely the type of information that 
we look at when we're doing our analysis to help determine 
which are the most viable----
    Mr. Shuster. I want to ask one other question.
    Mr. Szabo. Let me answer your question.
    Mr. Shuster. Not that you haven't answered it----
    Ms. Brown. Wait a minute--let him answer the question----
    Mr. Shuster. Madame Chair.
    Ms. Brown. --then get back.
    Mr. Shuster. I have asked a specific question.
    Ms. Brown. Okay. Well, you are going to give the answer.
    Mr. Szabo. I am.
    Ms. Brown. Okay. Let him answer the question.
    Mr. Shuster. It is a simple question.
    Ms. Brown. Okay. It's a simple question. It's just simple 
answers. Let him----
    Mr. Shuster. When do we get the information?
    Ms. Brown. Okay. Let him answer the question.
    Mr. Szabo. I know we made a stack of documents available to 
you on Friday. Counsel continues to work through what is, in 
fact, appropriate to be released publicly, and again----
    Mr. Shuster. That is the problem. What is----
    Mr. Szabo. It is part of our--it is part of our ongoing----
    Mr. Shuster. What does ``appropriate'' mean? This is not a 
national security question. I understand when the Defense 
Department and the CIA says what is appropriate to give to 
Congress. These are federal taxpayer dollars. The taxpayers and 
this Committee deserve to know how the process went forward. 
There is nothing here that I know of that says----
    Mr. Szabo. And, again, Congressman, we are trying very 
hard. We are trying very hard to meet the request to make sure 
that our record of transparency continues, but at this point 
the highest priority from my organization is to actually get 
these projects on the ground and to create jobs, but we will 
continue to try and meet your requests and to make sure 
whatever information is appropriate to be released will be 
released to you.
    Mr. Shuster. And I cannot speak for the entire Committee, 
but I have got to say, trying is not good enough. You have got 
to get us the information that we are asking for because it 
is----
    Mr. Szabo. Well, as I say, there was a batch released on 
Friday.
    Mr. Shuster. I yield to you.
    Ms. Brown. Okay. Let me just say one thing. As far as the 
comprehensive system, if you look at how much rail costs and 
how much it is to implement a system, if we were going to have 
true high speed, it would be $300 billion. It does not exist in 
this country. It does not exist with our partners. It does not 
exist with our stakeholders.
    So as we develop a plan, it has got to be one that is 
affordable.
    And let me just say one other thing. There is no form of 
transportation that pays for itself. I am not going to sit here 
and say, well, it is going to pay for itself. It is an 
investment. Look how much we have invested in the highway 
system. The trucks who are traveling over the system do not pay 
for itself. I said that earlier.
    We have made major investments in rail. The President talks 
about clean energy. There is no cleaner energy than rail. That 
is a commitment that as we move forward, that is why we are 
having these discussions and this dialogue, and it is not just 
about high speed. It is about more speed. It is about green 
energy. It is how we are going to move this country.
    And of course, we are going to move some of us dragging 
along, but we are going to move this country forward with this 
rail system.
    [Laughter]
    Ms. Brown. And we are not going to continue to be the 
caboose. Is that right, Mr. Chairman?
    Mr. Oberstar. You got it right.
    [Laughter]
    Ms. Brown. All right, Jan. You can have the last question.
    Ms. Schakowsky. No, I----
    Ms. Brown. Well, let's get the second panel. Wait a minute. 
Does anybody else feel that they need to respond? In Congress 
we give you one minute. Does anybody need one minute?
    [No response]
    Ms. Brown. Thank you. Let's give them a hand.
    [Applause]
    Ms. Brown. I want to welcome the second panel. You can see 
that bipartisan love is still existing in our Committee.
    [Laughter]
    Ms. Brown. And I want to welcome the Honorable Elaine 
Nekritz, who is the Representative in the Illinois State House 
of Representatives. I served in the Florida House of 
Representatives for ten years. It was my best training ground, 
and she is Chair of the Midwest Interstate Passenger Rail 
Commission.
    And we also have Mr. Harnish, who is the Executive Director 
of the Midwest High Speed Rail Association.
    And Mr. McHugh, Vice President for Government Affairs and 
Corporate Communications at Amtrak.
    And then we have Mr. Boston, International Vice President 
for the Brotherhood of Railroad Signalmen, and do not forget 
Mr. Hamilton.
    Do you want to introduce him?
    Mr. Lipinski. Do you want me to do it right now?
    Ms. Brown. Yes, sir, you can do it right now.
    Mr. Lipinski. Okay. Without the microphone, we have John 
Hamilton, President and CEO of Electro-Motive Diesel, commonly 
known as EMD, which is headquartered in my district in 
LaGrange, Illinois. EMD is a leading manufacturer of diesel 
electric locomotives, serving railroads across the globe. Mr. 
Hamilton took over five years ago when EMD spun off from 
General Motors. It is one of the few, maybe the only success 
story of such times, and in the Midwest, Electro-Motive Diesel 
will serve as a workhorse of high speed rail train sets. So 
that is why we have Mr. Hamilton here today. Thank you for 
being here.

  TESTIMONY OF THE HONORABLE ELAINE NIKRITZ, REPRESENTATIVE, 
HOUSE OF REPRESENTATIVES, STATE OF ILLINOIS AND CHAIR, MIDWEST 
 INTERSTATE PASSENGER RAIL COMMISSION; RICK HARNISH, EXECUTIVE 
 DIRECTOR, MIDWEST HIGH SPEED RAIL ASSOCIATION; JOHN HAMILTON, 
  PRESIDENT, ELECTRO-MOTIVE DIESEL, INC.; JOSEPH McHUGH, VICE 
 PRESIDENT, GOVERNMENT AFFAIRS AND CORPORATION COMMUNICATIONS, 
 NATIONAL RAILROAD PASSENGER CORPORATION (AMTRAK); AND DENNIS 
 BOSTON, INTERNATIONAL VICE PRESIDENT, BROTHERHOOD OF RAILROAD 
                           SIGNALMEN

    Ms. Nekritz. Thank you, Chairwoman Brown and Members of the 
Rail Subcommittee. I would like to thank the Committee for 
having this hearing and inviting me to speak.
    I chair the House Railroad Committee and am very often the 
only woman in the room. So as it comes to railroads, I seem to 
be the only woman speaking on the panel today.
    And I would also say to Chairman Oberstar that if he would 
like to provide some money for us to upgrade our equipment in 
the State of Illinois, we would certainly welcome that.
    [Laughter]
    Ms. Nekritz. I am a state representative, but I am here 
today wearing my hat as the Chair of the Midwest Interstate 
Passenger Rail Commission, which is an interstate compact of 
state legislators, governors and their appointees.
    Since 2000, the Midwest Interstate Passenger Rail 
Commission has worked on behalf of its member states to 
promote, coordinate and support improvement to passenger rail 
service. The primary objective of the commission is to help 
build a strong federal-state partnership necessary to advance 
passenger rail improvements in our region.
    Our region is ready with plans to build an efficient, cost 
effective, vibrant system with the potential to reap tremendous 
economic returns and job creation for the region while 
connecting 150 communities across the Midwest.
    As you have heard in previous testimony, the states have 
been working together for over a dozen years on a 
complementary, multi-state plan for significantly improving 
passenger rail through the Midwest Regional Rail Initiative and 
the Ohio Hub. The build-out of the Regional Rail Initiative and 
the Ohio Hub will bring over $30 billion in economic benefit to 
the region, while creating an average of more than 20,000 jobs 
annually during construction and approximately 75,000 permanent 
jobs.
    The estimated return for this project, as Mr. Szabo said, 
is 1.8, meaning that for every dollar spent on this project it 
is expected to yield a return of 1.8 dollars.
    The Midwest Interstate Passenger Rail Commission strongly 
supports the build-out of the Midwest Regional Rail Initiative 
and the Ohio Hub. At a cost of under $20 billion, a strong, 
efficient network of 15 corridors with multiple daily 
frequencies and new train sets running at speeds of up to 110 
miles an hour can be brought to the Midwest.
    And while the stimulus funding will allow our state to 
significantly strengthen and expand passenger rail service in 
our region, it will take several more years of federal and 
state investment to see the Midwest Regional Rail Initiative 
and the Ohio Hub fully implemented.
    There has been some talk that the Midwest should abandon 
these plans, clearly, and begin investing right away in very 
high speed rail development. Our commission supports the fact 
that faster trains on dedicated lines may be needed in the 
future, but what we want to see is our current plan implemented 
as soon as possible and before any substantive funding is 
diverted to preliminary studies of very high speed rail.
    Why? Because our plans are ready to go. They will 
significantly strengthen and expand our region's passenger rail 
service, making it frequent and on time.
    Based on the estimates of the Passenger Rail Working Group, 
the capital cost of implementing very high speed trains will be 
five times that of the incremental approach out Midwestern 
states have adopted.
    Now, I know that--and I am sorry that Congressman Mica is 
not here--I know he has held up those numbers, the speed 
numbers. Those are average speed numbers that include all the 
stops and all of the starts, and I do not know the math, but if 
we wanted to get to 150 miles an hour with those stops and 
those starts, we probably do have to build a 220 mile an hour 
system.
    So our line from Chicago to St. Louis will be doing 110 on 
most of the line, but we are not going to go 110 miles an hour 
screaming through downtown Springfield. We are going to slow 
down.
    Ms. Brown. Let me just state when you go to any other 
place, when you are out on the outskirts they go fast; when 
they go into town, they slow down.
    Ms. Nekritz. They slow down.
    Ms. Brown. I mean everybody knows that----
    Ms. Nekritz. Okay, but I wanted to make sure that----
    Ms. Brown. People in this room bid on high speed trains 
around the world, raise your hand. Okay. So everybody who has 
bid on high speed understand, and the others, we want to 
educate them.
    [Laughter]
    Ms. Nekritz. And I wanted to make sure that that message 
got through clearly.
    So implementing 220 mile service on a scale equivalent to 
the Midwest Regional Rail Initiative would cost around $65 to 
$105 billion, rather than the less than $10 billion that it 
will cost to bring faster, more effective and frequent service 
to the entire eight corridors in nine states envisioned by the 
Midwest Regional Rail Initiative.
    Incremental improvements can also be implemented over a 
relatively short period of time since we already have the plans 
and existing rail lines. It is my hope that you ride that train 
to Springfield during my tenure in the Illinois General 
Assembly.
    The Midwest is a testament to that fact that ridership 
grows with more frequent and reliable service, not just sheer 
speed. Ridership on the existing corridor service in the 
Midwest has been growing rapidly. In Fiscal Year 2009, 
ridership on the ten routes combined was 2.6 million, up 62 
percent from Fiscal Year 2004. Average annual growth overall on 
these routes over the past five years has been 12 percent. Per 
passenger rail service has been added. The ridership growth has 
responded strongly.
    In Illinois, when we doubled our state commitment to 
passenger rail in 2006, sine then our ridership on the Chicago-
Carbondale route has increased almost 130 percent and 138 
percent on the Chicago-St. Louis.
    When these plans are fully implemented, there will be at 
least four round trip frequencies on every corridor. Trip times 
will be competitive with other modes of transportation, and 
ridership is expected to soar. Ridership is expected to be over 
13.5 million a year.
    We look forward to continuing to work with you to insure a 
strong level of federal funding continues for high speed and 
intercity passenger rail. I would welcome that dedicated 
federal source of revenue to help the state work that we are 
doing.
    And lastly, I would like to reiterate our request of this 
Subcommittee that you amend the one statute to create a state 
planning and research program within Section 301 of PRIIA. It 
is important that the practice of state and intercity passenger 
rail planning include annual dedicated funding to appropriate 
advance state planning and construction efforts.
    Thank you again, and I really do appreciate the opportunity 
to be here, and I would like to extend a word to my 
Congresswoman, Congresswoman Schakowsky.
    Ms. Brown. Thank you.
    Mr. Harnish. Yes, I am Rick Harnish. I am the Executive 
Director of the Midwest High Speed Rail Association.
    We are a membership or supportive organization. We have got 
about 1,400 members throughout the Midwest and some actually 
overseas.
    I want to tee off of Mr. Mica's comments about no little 
plans. We are in Chicago where our motto is ``make no little 
plans,'' and I want to make it clear that we need to very 
quickly begin the design of at least one bullet train route, 
and I would prefer to see four, Chicago to St. Louis, Chicago 
to Minneapolis-St. Paul, Chicago to Cleveland and Detroit, and 
Chicago to Cincinnati.
    Earlier----
    Ms. Brown. How about California to Florida?
    Mr. Harnish. I would be perfectly happy to have a 
California to Florida, but we are talking about the Midwest.
    And that is what we should set our goals on, and we have 
talked about making steps, and I am excited about the huge 
progress that we have made in the last two years, but I would 
like to stop talking about baby steps and at least start 
talking about strides and really making this happen soon.
    As Mr. Szabo mentioned, I was very involved in doing the 
basic grassroots work to get the billion dollars that the state 
is going to spend on the Chicago to St. Louis corridor. That 
has meant eating a lot of rubber chicken at Rotary Club events 
in Lincoln, in Normal and all of these little towns throughout 
Illinois.
    So I am excited that we are getting going, and I am excited 
that soon my trip to Springfield is going to be a lot easier in 
a couple of years. But to suggest that we should wait until 
that is done to begin designing what the rest of the world is 
already doing, I find very disappointing.
    You know, Turkey is currently running trains at 155 miles 
an hour and soon will have a high speed line up and running by 
2016. Why aren't we making these plans now?
    Our members, a number of our members were very frustrated 
that the states were not making those plans, and so they asked 
us. One of the groups that asked us this was Civil Progress, a 
very conservative group in St. Louis. They recognized that to 
be part of the international marketplace they have to be no 
farther than two hours away from Chicago, and the only way you 
can make a two-hour trip to Chicago is with a bullet train. We 
need to build new track. They need to be electrified. They need 
to be separated from the freight lines, and they need to have 
no highway to cross.
    So we have proved it is, in fact, possible. It is within 
the range of projects cost-wise, similar projects that we see 
similar benefits. It does a lot of exciting things at once. It 
connects downstate Illinois to O'Hare, and that is part of the 
reason that it is so critical, is you are connected to the 
international marketplace.
    It connects McCormick Place to O'Hare, with a local shuttle 
service. It brings St. Louis within two hours of Chicago. It 
also connects our government center with the city and one of 
our most important learning centers, Champaign has become 45 
minutes away from Chicago.
    These are the kinds of things that I think the state should 
be focused on and focused on very aggressively. I would like to 
point out if we were serious about high speed rail, we would 
not be having a discussion about the billion dollars for the 
Chicago to St. Louis line because that would be part of the 
maintenance budget. It would not be a high speed rail program. 
It would just be part of maintenance.
    So I really applaud the efforts that your staff has made or 
that your Committee has made, and thank you very much for that. 
If it were not for the efforts of this Committee of if it were 
not for the efforts of President Obama, we would not be having 
this discussion today, but is clear that we need to becoming 
much more aggressive as we move forward.
    Ms. Brown. Thank you. Thank you very much for your 
comments. You are absolutely right because for eight years my 
goal to get a zero budget every year is what we had to deal 
with. This is the first time we have made a giant step forward. 
So I have just got to acknowledge that.
    Yes, sir.
    Mr. Hamilton. Chairwoman Brown, Chairman Oberstar, Ranking 
Member Shuster and Ranking Member Mica, thank you for the 
opportunity to appear today to discuss high speed rail.
    Congressman Lipinski, thank you for that kind introduction.
    The development of a high speed rail strategy has two main 
drivers: population mobility and job creation. The jobs 
creation agenda has as its corollary the revitalization of the 
American rolling stock and manufacturing base.
    I am the President and CEO of EMD, a company that has been 
manufacturing diesel electric locomotives for 88 years. Over 
that time we have made 60,000 locomotives. In the last 25 
years, almost half of all the North American passenger 
locomotives have either been completely made by EMD or powered 
by EMD's engine and traction technology.
    So as a representative of a company with this history, I 
appreciate the opportunity to contribute information to your 
investigation on what is the best high speed rail strategy to 
accomplish those two goals.
    Specifically, my comments do focus on the strategic choice 
between projects that utilize technology that can go up to 125 
miles an hour, which I will call higher speed, and projects 
reaching 220 miles an hour, which I will refer to as the 
highest speed.
    So let me first address population mobility. The United 
States has an extraordinarily mobile population. Four, point, 
nine trillion miles are driven each year; 584 billion passenger 
miles are flown each year. Commuter rail plays a large role in 
the mobility of our population. Intercity passenger rail plays 
a smaller but important role. Amtrak does an excellent job with 
the growing passenger count.
    Our nation's challenge is not mobility, but congestion and 
potential capacity shortfall, and the reality that passenger 
movement is accomplished by rail using far less fuel and 
emitting far fewer harmful pollutants than the alternatives of 
car and rail transit.
    The answer to capacity is simple. We have 140,000 route 
miles of track installed in the United States right now. While 
there are issues, some of which have been talked about, much of 
that track can be made available for higher speed passenger 
rail applications. Plus that track already connects the city 
pairs most likely to be of interest to passengers.
    In contrast, we have no highest speed track, and at between 
$50 million and $100 million a mile, we are not going to get 
much very soon. There are no immediately available rights-of-
way connecting the city pairs of greatest interest, and getting 
them will not only take time, but may even introduce 
environmental concerns.
    The next criterion is environmental impacts. Some 
technology discussion is in order here. Two hundred and twenty 
miles per hour can only be achieved with electric locomotives. 
The 125 mile per hour goal can also be achieved with a diesel 
electric locomotive. A diesel electric locomotive is called 
that instead of the simple diesel locomotive because just like 
an electric, it applies electric power to wheels to move the 
train. Whereas the electric locomotive gets its power from a 
remote power station carried through overhead transmission 
lines, the diesel electric locomotive carries its power plant 
on board.
    We at EMD face the dieselization versus electrification of 
rail lines debate throughout the world. I draw the conclusion 
that the environmental advantages of each of these types of 
locomotives are balanced. Electric locomotives may not have 
emissions coming from their own stack, but getting them power 
requires a power station which also burns fossil fuels, and 
overhead transmission lines with attendant efficiency losses.
    In contrast, diesel electric locomotives by 2015, which is 
just five years from now, will only emit five percent of the 
harmful emissions of the locos built just ten years ago.
    Let me turn my attention to the impact of higher versus 
highest speed choices on American jobs and technology, starting 
with technology.
    The United States unquestionably makes the best diesel 
electric locomotive in the world. No one would dispute that. 
EMD is one of two U.S. companies whose technology is the envy 
of European and Chinese manufacturers alike.
    As evidence, EMD has delivered 10,000 locomotives to 70 
nations around the world. Over the last two years, half of all 
our locomotives are exported. In fact, the value of our exports 
to China and India are 50 times what we buy from them.
    No American company makes electric locomotives. Episodic 
projects like highest speed rail which entice a foreign 
competitor to partner with a company like EMD do not strengthen 
U.S. technology. We become contract manufacturers or final 
assemblers or ``paint and testers''. We do not develop an 
independent capability in the highest speed electrical 
locomotive technology.
    Little if any intellectual property is transferred to us. 
As the foreign partners look to comply with Buy American 
provisions without creating an eventual competitor.
    On the other hand, projects utilizing higher speed rail 
building upon the expertise already existing in the country do 
advance U.S. technology in a permanent way. When the project is 
completed, U.S. industry remains in possession of the 
intellectual property and the workers hired can go to work 
building more advanced passenger and trade locos for domestic 
and export markets.
    Now to consider the impacts on EMD and our suppliers. We 
employ 1,600 engineers, UAW laborers, and other salaried 
workers in the United States. We also spend over $900 million 
annually on 3,400 suppliers within 500 miles of Chicago.
    An order for higher speed rolling stock requires more of 
everything, more engineering, more workers, more from our 
commercial supplier base. A hundred percent of the material we 
would make or buy for an American passenger loco would be 
sourced in America.
    In the case of highest speed, the decision maker is the 
foreign company who puts as little as possible into America 
while remaining in compliance with Buy America provision.
    These are the advantages of higher speed passenger rail. 
Highest speed has its own advantages which derive from other 
objectives, but I am reminded about the debate on the 
supersonic transport 40 years ago. America decided not to 
pursue this technology while the Europeans did. Since then the 
maximum speed of an American passenger aircraft has moved up 
only incrementally, but exports and air passenger miles flown 
have exploded.
    Meanwhile, the Concorde is out of service and not to be 
replaced soon. Any resurrection of an SST will not be for 
environmental reasons, nor will it be to enhance the mobility 
of the nation's broad population, nor will it be for jobs 
creation. It will be to take a few business people to another 
part of the globe to do business. That will not be a national 
priority.
    I opened my remarks by referring to EMD's rich history, and 
I close that way as well. It was earlier discussed that a 1934 
locomotive achieved a speed record of over 110 miles per hour, 
and that was actually powered by EMD technology.
    As Congressman Lipinski mentioned, we celebrated our fifth 
anniversary as a stand alone company, and as we were preparing 
for that anniversary, we were shuffling through old piles of 
stuff and found the blueprints for that locomotive. That 
locomotive can be found in the Museum of Science and Industry 
now, and so those blueprints are what we are passing out now if 
I can get the tape off. I will just quickly share this. Here 
they are, and it is really quite interesting. I will quickly 
flash it at the back and flash it around.
    This is a photo of the original blueprints of that 
Burlington Zephyr, and it says in 1933, right in the corner, 
``proposed high speed three-car train.'' 1933, it ran in 1934.
    So back then EMD was playing a role in the advancement of 
America's high speed passenger transportation, and we look 
forward to doing it again in the future.
    Thank you very much.
    Mr. Oberstar. Thank you.
    Our next witness is Joseph McHugh, Vice President for 
Government Affairs and Corporate Communications for Amtrak.
    Mr. McHugh. The microphone passing reminds me of an Office 
Depot commercial. They just have one pen for the meeting of 
everybody in the room.
    I wanted to thank you very much for the opportunity to 
testify here today and thank you, Chairwoman, for seeing some 
of the sights around Chicago yesterday and for traveling out 
with a number of us and seeing some of the system as well. 
Indeed, Chairman Oberstar, thank you. I was at the Englewood. I 
attended the ribbon cutting back in March when we kicked that 
off. It was a tremendous event. It was so nice to have you 
there, and we took the Chairwoman out there yesterday and got 
to show her the same thing that we talked about when you were 
there. It was terrific, just a terrific opportunity, I think, 
to really open up and embrace some of the suggestions coming 
out of Chicago.
    I am going to spare all of you the reading of my testimony. 
You have it. It is going to be put into the record. I am going 
to just talk for a couple of minutes about some of the points 
that Mr. Mica raised and a couple of points that Elaine Nekritz 
made on the panel.
    I also want to thank the previous panel for warming you 
guys up for us. So with that----
    [Laughter]
    Mr. McHugh. The projects that were submitted and approved 
by the FRA, those are the 78 to 79 projects which were actually 
brought to us by the states who had asked for our help and our 
planning resources and to give them sort of a better breadth of 
what they were asking for. In many cases, the applications 
required us to sign off on them as a condition of their 
application.
    And it goes to a larger point of the fact that what is 
really happening in this country as the money is becoming 
available is the need for better planning at the state level. 
Not all states have the tremendous planning staff that some of 
the others do, and they are evolving. And the money that will 
come will force the states, I think, to have a more aggressive 
outreach with regard to planning and staffing of people who can 
deal with rail development.
    We in the meantime sort of fill that void at Amtrak, and so 
we work very hard. We worked in 30 states in the last round to 
help them with the planning exercises need so they could submit 
good and advancing types of proposals, and we intend to do that 
as we go forward as an expert on the 2.5 billion which will 
come later this year.
    We believe that as states develop their own rail plans they 
will develop the expertise to actually, you know, do their own 
planning. The PRIIA bill drives much of the decision making 
back towards the states, and we see ourselves a partner for 
that and then working in close cooperation we would hopefully 
evolve what they want about planning and how they can generate 
better projects in the future.
    The other part of this, too, drives the point I just made. 
It is really a much more intensive cooperation with the states. 
On the northeast corridor we have been working for three years 
with all of the states, with 13 states and the other users of 
the corridors to develop a comprehensive plan for capital 
investments to try to get the maximum amount of capacity out of 
the existing resource there.
    We are going to reach that this week, and I believe in June 
we will be releasing the vision plan that goes along with that. 
That is an example of more than just one region. It is really 
several regions in the very busy Northeast that have been able 
to work together and develop a common sort of vision and plan 
about what they want to do going forward.
    And really the third part of this trifecta of where we 
would hope this would go is some type of a reliable or 
dedicated multi-year funding process. So we have put a lot of 
our hope at Amtrak; those of us in the community who have been 
doing it for a long time also have put a lot of hope in the 
reauthorization of the surface transportation bill when 
Congress turns to that. We have already put a pretty big stake 
in the ground in terms of how much we would like to see in rail 
development, and we hope that a way will be found to do that 
and to advance it.
    Elaine mentioned a little bit about the Northwest Regional 
Rail Initiative, and I will tell you that while she did an 
excellent job of summarizing it, some of the trip times that 
are achieved even at the speeds that have been set are really 
fairly significant. On the Chicago-Detroit line it is nearly 
two hours. Chicago-Cleveland is two hours. Chicago-Cincinnati 
is four hours. Chicago-Milwaukee is 25 minutes, and actually a 
lot of people use that on a regular basis. It is not a commuter 
train, but they use it in a sense to commute.
    And I will tell you living in Washington, riding on the 
Metro system, if they told me they would give me back an hour 
of my day, I would leap out of my skin in joy and exaltation 
because it is very rare anymore in this congested world that we 
find ways to give people back more of their time through better 
transportation options.
    Finally, I would like to just summarize, and this is in my 
statement near the end, but we have really begun in our 
thinking about this, our board and our management, and as we 
really got into it with the states, have begun to think about 
really the perfecting systems here is really one that is 
integrated. It is high speed service. It is a strong core of 
regional service, and it is commuter service with some type of 
a smaller, limited service type of offering.
    So in a particular area, corridor or region, you can get 
onto a high speed express train and get to where you are going, 
but at the in between stops would be served by regional trains 
which you could transfer onto or from for high speed service, 
and even then after that you would actually get on a commuter 
train and go anywhere else that the regional or the high speed 
services do not go.
    That is a lot like the Northeast Corridor right now. It 
will be, I think, in California, the same type of system if 
they are able to build out what they want. But those will be 
the healthy corridors of the future, the ones that are not just 
a high speed from here and there that does not really connect 
with any other type of transportation. It is the one that has 
sort of the healthy integration of services.
    We will just report to you as well that we have finished 
the first half of the fiscal year ahead of last year's income 
in both ridership and revenue. In fact, our first quarter, 
despite the recession, the first quarter was the strongest 
first quarter in the company's 40-year history. If we finish on 
the course that we think, we will be somewhere around four and 
a half percent higher in ridership and about four percent 
higher on revenue year over year.
    And finally, next year Amtrak will celebrate its 40th 
anniversary, and one of the mainstays of our local motor 
history is the EMD F-40, which is a terrific locomotive. We 
have saved a few of them, and if we can get our act together 
and get this done, we are going to retain two of them in the 
original livery and run them around the system for our 
employees and for guests and for people who would like to see 
heralding the past and hopefully getting people encouraged 
about the future.
    Thank you very much.
    Ms. Brown. Thank you.
    Mr. Boston, next.
    Mr. Boston. Thank you, Madam Chair and distinguished 
Committee Members.
    I am speaking today on behalf of the Railroad Signalmen and 
its Transportation Trade Department affiliates.
    As you all know, these are historic times, historic times 
for the administration, Members of Congress, and the Federal 
Railroad Administration. We look forward to a new day in 
American history. For the first time in our lifetime we are 
seeing real investments in the future--I will just speak loud. 
All right. Let's try it.
    Rail labor is working hand in hand with partners from the 
Federal Railroad Administration and Amtrak to bring high speed 
rail to America. We believe that the plan that the FRA has in 
place to achieve 110 miles per hour in stretches of the Midwest 
Corridor, along with resulting time improvement, is a sound and 
productive way to move forward. We must utilize safe practices 
to get to 110 miles an hour and above. Focusing on the 79 miles 
per hour to 90 to 110 is safe and it is a good practice. It is 
a strong foundation for moving into high speed rail in America.
    Here in Chicago like no other city, they know how to 
cooperate with railroads, communities, states, and federal 
government agencies. One of those cooperative movements you 
have heard about is called the CREATE Project. I know for a 
fact that here in Chicago the money that was spent in that 
proposal to alleviate the traffic and congestion is already 
giving dividends. It is already allowing workers that would 
have been laid off, if not exempt from money that was brought 
forward by the federal government are still working, and new 
workers are being brought on to Metra to alleviate all the 
congestion in this area. It is going to help bring trains from 
all across the country through Chicago faster and, of course, 
safer.
    America is ready for us to move forward on high speed rail, 
not just to get to one place quicker than--and to the other, 
but it is a very important goal to have is to get there 
quicker.
    Americans are hungry for jobs. Americans are ready to 
rebuild America once again. Americans have been devastated 
recently by the economy. We have an opportunity to rebuild our 
economy through high speed rail, which is the centerpiece.
    Let's build high speed rail with rail labor. Get America 
working with good paying railroad jobs so Americans can once 
again have pride and dignity. Securing safe and reliable 
services in the near future must be the biggest priority of the 
Federal Railroad Administration.
    This is why we must use highly skilled railroad workers who 
will keep the high speed trains moving safely. Amtrak has a 
very high skilled work force in place today. They can build; 
they can maintain; they can repair; and they can generate a 
real high speed rail system, from the signal system that can 
get us the higher train speed and move faster and safer, to 
building, maintaining the infrastructure and the car shop and 
operating Amtrak employees have proven that they are the right 
company for the job today.
    I just want to say that rail labor wants to work with the 
partners, FRA, Amtrak and others, to build a real high speed 
rail system in the United States.
    And I want to thank the distinguished Chair for her vision 
and tenacity and never giving up on her dream to have a high 
speed rail system in the United States.
    Thank you.
    Ms. Brown. Thank you, Mr. Boston.
    Mr. Mica has one question, and if any of the other Members 
have a question and then I am going to let Mr. Oberstar close.
    Mr. Mica. Actually I do not have a question, and we will 
submit questions to the panel. We are running short on time and 
we do have votes tonight, but I just want to say on behalf of 
our side of the aisle how much we appreciate--well, first I 
want to thank Ms. Brown and Mr. Oberstar, the Chair, for their 
not only interest in this hearing, but their untiring interest 
and efforts to move both passenger rail and high speed rail 
forward.
    This is a bipartisan effort. You heard a little laundry 
being aired here today and with the witnesses. So we 
appreciate, I appreciate the Governor, the other 
representatives of states, representatives of labor and others 
that came--Amtrak, because we all want to make this succeed, 
and we want it the best possible.
    So from our side of the aisle, you know, from time to time 
you have to have that opposition, and we would like to stir it 
up a bit, but we all want the same productive results. So thank 
you for the hearing. Thank you for participating, and we will 
send you the tough questions after the hearing.
    Ms. Brown. Thank you.
    Mr. Oberstar. Anybody else?
    Mr. Oberstar. Mr. Lipinski had a comment.
    Mr. Lipinski. I think for the sake of time, I will just 
thank all witnesses for their testimony, and if we had more 
time I would appreciate Mr. Hamilton's and Mr. Harnish's 
further discussion on the higher and the highest speed rail, 
but I do not think we have time for that. But I appreciate Mr. 
Hamilton's explanation there. I thought that was excellent 
pointing out all of the advantages right now to the way that we 
are going about doing higher speed rail right now.
    So I thank all of you.
    Ms. Schakowsky. I just have one quick question Mr. 
Hamilton, are you saying right now if we move to higher speed, 
then we will be relying entirely on out of U.S. manufacturers 
for that?
    Mr. Hamilton. For the critical technologies, yes.
    Ms. Schakowsky. And do you see yourselves, your company or 
anyone else then developing for the future the manufacturing 
capacity for the highest speed trains?
    Mr. Hamilton. All right. So the manufacturing capacity and 
the engineering capacity are also things that need to be 
developed. I think that to go to electric locomotives from a 
century of diesel locomotives is quite a jump, and it involves 
the creation of an intellectual and engineering capability that 
would be an investment almost from start-up.
    There is obviously electric. Electricity, so to speak, 
controlled and conditioned inside a diesel electric locomotive, 
but there is much more engineering requirements that would have 
to----
    Ms. Schakowsky. And diesel electric will not transfer to 
the highest speed?
    Mr. Hamilton. It will go to 125.
    Ms. Schakowsky. Okay. Thank you.
    Ms. Brown. Chairman Oberstar.
    Mr. Oberstar. Well, I think this has been a very 
illuminating hearing, a little more heat than light early on.
    [Laughter]
    Mr. Oberstar. And this panel has been very instructive. We 
have met several times in the past. I regret having to step out 
momentarily while you delivered your testimony, but the central 
thrust of your testimony is that states should and can and will 
participate in developing plans for high speed rail in 
partnership with the federal government; is that correct? You 
and your colleagues in the Illinois legislature support that 
principle?
    Ms. Nekritz. And throughout the Midwest. I am really 
appearing on behalf of the Midwest Interstate Passenger Rail 
Commission. So yes.
    Mr. Oberstar. Thank you very much.
    Mr. Hamilton, I look forward to unraveling this 
interpretation you made to Committee Members. If there is room, 
I will display it in my office because it brings back fond 
memories of seeing citizens lining the tracks watching the high 
speed rail come through.
    That was a different era, and now we are recreating or 
restructuring the past in order to create a new future. That is 
not an easy task, and you have laid out for us the different 
levels of the locomotive power thrust capability, 220 only 
possible with electric power, and I liked your reference or 
allusion to the electric generating facilities that are 
actually putting pollution in the air. It looks clean on the 
ground, but that power is coming from someplace, and that 
electric generating facility is putting CO-2, NOx, SO-2 in the 
air.
    And your comment about within the next five years we will 
have a power unit that will produce only five percent of the 
emissions of diesel units ten years ago. Did I get that 
correct?
    Mr. Hamilton. Yes.
    Mr. Oberstar. Congratulations.
    And your export of 10,000 locomotives abroad to other 
countries, particularly China, one of the few things we are--
manufactured items we are exporting to China.
    Mr. Hamilton. yes.
    Mr. Oberstar. Wonderful. And, Mr. Boston, clearly, you see 
the job creation part of this and your members are going to be 
job beneficiaries.
    I submit for the Committee record, not for the hearing, the 
documentation submitted to both the Minority and the Majority 
on high speed passenger rail grant selection process summary. 
It was also submitted June 23rd of last year to the Federal 
Register, and this is an update. The documentation is quite 
substantial and need not be in the actual Committee hearing, 
but in the documents accompanying the hearing.
    And I shall convene a meeting of Mr. Szabo, the Deputy 
Secretary of Transportation and the Minority in our Committee 
to review and have a thoughtful, reasoned discussion on the 
selection criteria that DOT has followed.
    This was not haphazard, hit or miss. It was an open, 
inclusive process. There were eight private proposals submitted 
for DOT's review. They were submitted for review by the Volpe 
Center of DOT in Massachusetts. The Volpe Center which is 
objective and nonpartisan recommended five of those projects.
    One was by the California High Speed Rail Authority, which 
plans to finance their project with a lot of private sector 
funding, which in their $40 billion project would be roughly 
$10 billion. They are in the role. It is being filled 
appropriately by private sector interests.
    The French National Railroad, which manages the TGV, 
submitted four proposals, one for Florida, one for the Midwest, 
one for California, one for Texas Corridor. Those are all still 
under review and in play as the process goes forward.
    There is an appropriate role to play. Talgo is also 
participating with private sector interests with the State of 
Wisconsin in this process.
    We are at the beginning of a very laborious, complicated 
procedure. I stated earlier in this hearing the European high 
speed rail initiative, those in China and in India where they 
are upgrading the Mumbai line and several others, all have just 
simply acquired the land. they did not have to go through an 
EIS. They do not have an American Civil Liberties Union. They 
do not have the contentiousness that we have over endangered 
species. They just built them.
    We cannot just build them. We can build upon the past in 
order to invest in the future in a step-by-step process, and 
there are least three categories of rail-passenger service in 
this industry that we are working on. And we welcome all 
participants. We are going to proceed, and this is unmistakably 
on a course intended to be for the future.
    We welcome partnership. It is going to be reasoned and 
thoughtful and constructive.
    Thank you.
    Ms. Brown. I want to thank all of the participants. I want 
to thank everyone for coming.
    And there is a reason why it is in our first tour, the 
first tour that we have in 50 years, Mr. Chairman. We first had 
a tour on the highway system-Eisenhower's. This is the first 
tour since then. There is a reason why we came here to Chicago 
as our first stop, our first hearing, because this is a very 
important part of what we are trying to do together as 
partners.
    I want to thank you for your leadership. I want to thank 
the administration with the leadership of the Secretary and all 
of the Members that have come out. As we move forward, your 
input and your comments are going to be very important as we 
develop high speed, more speed, however you want to define it, 
how we are going to move people and services.
    As I said before, we started the systems. We are the 
caboose now, and we are going to change that. Toot, toot, the 
meeting is over.
    [Whereupon, at 12:20 p.m., the Subcommittee was adjourned.]

</pre></body></html>
